<html>
<title> - [H.A.S.C. No. 111-85]OVERSIGHT OF FAMILY SUPPORT PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-85]
 
                  OVERSIGHT OF FAMILY SUPPORT PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 22, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
53-057                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                 Debra Wada, Professional Staff Member
               Jeanette James, Professional Staff Member
                     Rosellen Kim, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, July 22, 2009, Oversight of Family Support Programs...     1

Appendix:

Wednesday, July 22, 2009.........................................    31
                              ----------                              

                        WEDNESDAY, JULY 22, 2009
                  OVERSIGHT OF FAMILY SUPPORT PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Kent, Sgt. Maj. Carlton W., USMC, Sergeant Major of the Marine 
  Corps..........................................................     7
Lyman, Col. Cory, USAF, Assistant Director, Individual and Family 
  Support Policy, Office of Secretary of Defense Reserve Affairs, 
  U.S. Department of Defense.....................................     4
Myers, Arthur J., Principal Director Military Community and 
  Family Policy, Under Secretary of Defense, Personnel and 
  Readiness, U.S. Department of Defense..........................     3
Preston, Sgt. Maj. Kenneth O., USA, Sergeant Major of the Army...     5
Roy, Chief Master Sgt. James A., USAF, Chief Master Sergeant of 
  the Air Force..................................................     9
West, Master Chief Petty Officer Rick D., USN, Master Chief Petty 
  Officer of the Navy............................................     8

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    35
    Kent, Sgt. Maj. Carlton W....................................    88
    Lyman, Col. Cory.............................................    66
    Myers, Arthur J..............................................    39
    Preston, Sgt. Maj. Kenneth O.................................    74
    Roy, Chief Master Sgt. James A...............................   119
    West, Master Chief Petty Officer Rick D......................   110
    Wilson, Hon. Joe.............................................    38

Documents Submitted for the Record:

    Statement of the Fleet Reserve Association on Support for 
      Military Family Programs Policies and Initiatives..........   135
Witness Responses to Questions Asked During the Hearing:

    Mr. Wilson...................................................   145

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   149
                  OVERSIGHT OF FAMILY SUPPORT PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Wednesday, July 22, 2009.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. Our hearing will come to order.
    I want to welcome all our witnesses. Today, we will turn 
our attention on the multitude of family support programs 
within the Services and the Department of Defense (DOD).
    While we have focused on several of these issues in the 
past, this is the first subcommittee hearing in over a decade 
that will solely focus on family support programs that are so 
important and vital to our military families during these 
challenging times.
    The burden of eight years of conflict have not only fallen 
on our servicemembers. A large portion of that burden has also 
fallen on their families, as well. And, unfortunately, their 
plight is often overshadowed.
    While the majority of Americans have been outstanding in 
their support of our men and women in uniform, sadly, the 
majority of military families in a recent survey revealed about 
94 percent of military families felt that the average American 
does not understand the sacrifices these families are making.
    The toll is especially significant on those most 
vulnerable: our military children. The number of military 
children who are seeking mental health care since the start of 
Operation Iraqi Freedom (OIF) has more than doubled. And many 
children are being forced to wait months to receive treatment 
because access to care is not sufficient.
    However, mental health is just one area where there are 
challenges. As we have found, there are issues that affect 
servicemembers going through the deployment process, pre-, 
during and post-deployment. And while their issues are slightly 
different, military families face their own set of hurdles 
during each phase, as well, and it is our responsibility to 
ensure that we work to address these issues and support our 
families as we do our men and women in uniform.
    I do not mean to imply at all that nothing has been done 
for families. Quite the contrary, the Services and the 
Department have undertaken significant effort--extraordinary in 
many cases--to improve programs and assistance for military 
families.
    But there is more that can and must be done to support all 
of those who defend our Nation, and that includes our military 
families.
    Today, we have asked the senior enlisted representatives 
from each of the Services to be with us. As the eyes and ears 
of their individual force, they know and understand what is 
happening on the ground level.
    We have also asked a representative from Reserve Affairs to 
be here to provide the perspective of the unique challenges 
Reserve and National Guard families face, as well as a 
representative from the Department who is responsible for all 
of these programs.
    So let me introduce our witnesses.
    Mr. Art Myers, principal director military community and 
family policy, Office of the Secretary of Defense, Personnel 
and Readiness, welcome.
    Colonel Cory Lyman, assistant director, individual and 
family support policy, Office of the Secretary of Defense for 
Reserve Affairs.
    Sergeant Major Kenneth Preston, sergeant major of the Army.
    Sergeant Major Carlton Kent, sergeant major of the Marine 
Corps.
    And Master Chief Petty Officer Rick West, master chief 
petty officer of the Navy.
    And Chief Master Sergeant James Roy, chief master sergeant 
of the Air Force.
    Gentlemen, welcome. We are very pleased that you are here.
    I will ask you to testify in the order that I just 
introduced you. And without objection, all written statements 
will be included in the record. Thank you once again for being 
here today, and we look forward to a very productive hearing.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 35.]
    Mrs. Davis. Mr. Wilson, do you have any comments?

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis, for holding this 
hearing. And thank you to each of our--today's panel.
    And I am particularly pleased to see the senior enlisted 
personnel from the Services, and I know that one of my sons is 
a doctor in the Navy, and I am very grateful that he has 
provided for his chief noncommissioned officer (NCO) at the 
Portsmouth Naval Hospital to now be an intern in our office 
this month. So we appreciate what--what you do for our country.
    Meeting the needs of military families has never been more 
challenging or complex. We are a Nation at war, fighting on two 
fronts, and the strains of those wars translate directly and 
immediately to the families of the members of the Armed Forces.
    When you disrupt the military family unit by deploying a 
key member of that family, a host of issues arise that stress 
all aspects of family life: economic, physical, and mental 
health, personal finances, interpersonal relationships, and 
many more areas.
    This subcommittee, the Department of Defense, and the 
military services have taken any number of initiatives to 
address the needs of military families. During my 31 years of 
service with the Army Reserve and Army National Guard as a 
legal assistance Judge Advocate General (JAG), I conducted pre-
mobilization legal counseling and will preparation statewide.
    I appreciate what efforts have been made for military 
families, which I know firsthand as a veteran and as the 
grateful father of four sons currently serving in the military.
    Yet, despite all that has been accomplished, there remains 
evidence that the family support system may not be completely 
effective. While I know that the Department of Defense and the 
military services are committed to assisting and supporting 
military families, I am not convinced that the provision of 
those services is fully coordinated and integrated.
    So I am interested in hearing from our witnesses as to how 
effective the coordination and integration is. Also, I am 
interested in hearing where we must provide additional effort 
in the form of policy or resources to improve what already is 
being done.
    With that, Madam Chairwoman, I join you in welcoming our 
witnesses, and I look forward to their testimony.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 38.]
    Mrs. Davis. Thank you. Thank you, Mr. Wilson.
    I believe that we had asked our witnesses if they could try 
and condense their remarks into about three minutes, then that 
will allow for a lot of dialogue between the members and 
yourselves. I would appreciate that.
    So without objection, I ask unanimous consent that the 
written testimony from the Fleet Reserve Association (FRA) be 
included in the record, and we are delighted to begin.
    [The information referred to can be found in the Appendix 
on page 135.]
    Mrs. Davis. Mr. Myers, would you please proceed, Mr. Myers.

   STATEMENT OF ARTHUR J. MYERS, PRINCIPAL DIRECTOR MILITARY 
   COMMUNITY AND FAMILY POLICY, UNDER SECRETARY OF DEFENSE, 
      PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Mr. Myers. Chairwoman Davis, Representative Wilson, and 
distinguished members of the subcommittee, the Secretary of 
Defense and all the men and women of the Armed Forces, as well 
as their families, thank you for your strong support. We are 
very appreciative that you are holding this hearing.
    Our Military OneSource program is well tailored for its 
individually tailored services and its availability anytime 
from any place, which is particularly helpful for those who are 
geographically isolated from installation support.
    This program offers face-to-face non-medical counseling for 
military members and their families experiencing the normal 
stress of multiple deployments and reunions, as well as 
financial assistance and health and wellness coaching.
    Additionally, we have placed military family life 
consultants in schools, selected by the military departments, 
to provide consultation, education, training and workshops to 
faculty, parents and children to help cope with deployments. We 
now have 399 military life consultants at our childcare and 
youth programs and summer camps.
    We are also assisting spouses to develop portable careers 
by offering military spouse career advancement accounts for 
credentialing and licensure. This initiative began in March, 
and already 34,000 military spouses have established accounts, 
and almost half who have started training are seeking careers 
in health professions.
    We appreciate the Congress's focus on military families who 
have children with autism. However, we need your support to 
expand this attention to all military families with special 
needs, not only those with autism.
    Military families with special needs encounter multiple 
challenges navigating the maze of health care, education, and 
community support services they face each time they move. 
Several years ago, the Congress granted temporary authority for 
minor military construction of child development centers that 
allowed us to accelerate childcare capacity and increase spaces 
by 15,000 on a rapid basis.
    To meet our goals for childcare and to keep our members fit 
to fight and win, we require a similar authority for fitness 
centers and family centers and for childcare for children 
through 12 years of age. We need to extend the authority which 
ends this fiscal year through fiscal year 2012 and also 
increase the project threshold to $15 million.
    In addition, we need to eliminate the barriers to our 
partnerships with military community providers of childcare, 
such as relief from the Service Contract Act. Your staff has 
been very supportive of these initiatives and has contacted the 
committees with oversight of these areas for assistance.
    We appreciate your concern about ensuring continuity on 
program delivery and your understanding of our efforts and 
importance of moving the overseas contingency operations 
funding into the baseline funding budget.
    Thank you again for your strong support of the military 
members and their families. Those of you who are members of the 
Baby and Children Caucuses further represent the best interests 
and needs of all military children. I will be happy to respond 
to any of your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 39.]
    Mrs. Davis. Thank you very much.
    Colonel Lyman.

    STATEMENT OF COL. CORY LYMAN, USAF, ASSISTANT DIRECTOR, 
 INDIVIDUAL AND FAMILY SUPPORT POLICY, OFFICE OF SECRETARY OF 
      DEFENSE RESERVE AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Colonel Lyman. Chairwoman Davis, Congressman Wilson, and 
members of the subcommittee, thank you for your invitation to 
discuss the status of family programs from the Reserve Affairs 
perspective.
    National Guard and Reserve members and their families are 
geographically dispersed throughout America's communities. They 
have unique issues and opportunities. The Department is 
committed to support Reserve members and their families through 
policies that maintain strong family programs and through 
innovative efforts, such as the Yellow Ribbon Reintegration 
Program.
    Great responsibilities have been placed on the shoulders of 
Guard and Reserve members and their families. On behalf of the 
Department of Defense, I express deep appreciation for the 
unflagging support given by this committee to the care and the 
support of dedicated and patriotic Reserve Component members 
and to their marvelous families who also serve and sacrifice.
    Reserve Component families address family needs--excuse me. 
Reserve Component family programs address family needs that 
differ in meaningful ways from active component families. For 
instance, Guard and Reserve families are community-based and 
connected. They are also dispersed geographically across some 
4,000 communities nationwide. These realities create challenges 
and also offer great opportunities to link with community 
resources.
    To help Reserve Component members through the deployment 
cycle, the Yellow Ribbon Reintegration Program was developed. 
This program is focused on the Reserve Component member, and it 
works hand in hand with the family program to enhance family 
readiness, and it helps to smooth many of the potential 
challenges of military deployments.
    The Department is committed to the success of this Yellow 
Ribbon Reintegration Program, and we appreciate this 
committee's continued support of this visionary program.
    We will continue to collaborate with the many agencies and 
programs that help deliver critical family programs and Yellow 
Ribbon resources to every Guard and Reserve member and their 
family members nationwide. And, again, we are grateful for your 
essential interest and support.
    And I look forward to answering your questions.
    [The prepared statement of Colonel Lyman can be found in 
the Appendix on page 66.]
    Mrs. Davis. Thank you very much.
    Sergeant Major Preston.

STATEMENT OF SGT. MAJ. KENNETH O. PRESTON, USA, SERGEANT MAJOR 
                          OF THE ARMY

    Sergeant Major Preston. Chairwoman Davis, Representative 
Wilson, committee members, thank you for the opportunity to sit 
before you today and represent the men and women of America's 
Army.
    On behalf of more than 1.1 million men and women serving in 
the Army and their 814,000 family members, I want to thank you 
for your support. This committee has and continues to take care 
of our All-Volunteer Force who serve our Nation with loyalty, 
pride and honor.
    I have brought three soldiers with me today to help answer 
your questions and to further help you help our warriors and 
their families.
    First, the command sergeant major for the Army Reserve, 
Command Sergeant Major Leon Caffie, who serves as the senior 
enlisted adviser for Lieutenant General Jack C. Stultz, the 
chief of the Army Reserve.
    The interim command sergeant major for the Army National 
Guard, Command Sergeant Major Victor Angry, who serves as the 
senior enlisted adviser for the acting director of the Army 
National Guard, Major General Raymond Carpenter.
    These two command sergeant majors represent more than 
560,000 soldiers and their families in the Army National Guard 
and the Army Reserve.
    I also have with me Sergeant Joel Dulashanti, who hails 
from Cincinnati, Ohio. Sergeant Dulashanti is 22 years old and 
enlisted in the Army in 2005. He deployed to Afghanistan along 
the Pakistan border in January of 2007. He performed operations 
as a sniper out of several forward operating bases, including 
Salerno, Tillman, and Warrior.
    On the 4th of May, 2007, he was caught in an ambush during 
a recon and was shot through both his left and right knees and 
his stomach. He is an above-the-knee amputee on his right leg, 
and he now works in the office of the legislative liaison, and 
he hangs out with me when I get the chance to come over here to 
Capitol Hill.
    The mission of the Army is to fight and win our Nation's 
wars. Today, the American soldier brings unmatched skills in 
defending our Nation and our allies around the world. We 
currently have more than 260,000 soldiers currently forward 
deployed to 80 countries around the world. The large majority 
of these soldiers are forward-deployed in Iraq and Afghanistan 
in brigade combat teams, multifunctional brigades, functional 
brigades, and other force-enabling units.
    Additionally, 260,000 Army civilians are performing 
critical missions in support of the Army.
    During the past year, I traveled to visit, speak and listen 
to soldiers and their families all over the world. Soldiers and 
family members routinely list access to quality medical care as 
their biggest concern. One of the major accessibility 
challenges to getting quality medical care is finding 
sufficient health care providers outside our military 
installations who accept TRICARE payment. As one health care 
provider said, ``I take TRICARE cases out of charity to help 
the Services.''
    Limited numbers of health care providers especially hurt 
our soldiers and families in geographically dispersed 
locations. While TRICARE is meeting their established standards 
for care available, I recommend a review of those standards to 
ensure they meet the needs of soldiers and families serving 
today at a higher operational pace.
    In closing, the centerpiece of our commitment to soldiers 
and their families is the Army Family Covenant, which we 
launched in October of 2007, and the Army Community Covenant, 
which we launched in 2008. Both of these initiatives 
institutionalize and fund the programs supporting our soldiers 
and their families with the support that is commensurate to the 
quality service they provide to the Nation.
    Madam Chairwoman Davis, committee members, thank you. And I 
look forward to your questions.
    [The prepared statement of Sergeant Major Preston can be 
found in the Appendix on page 74.]
    Mrs. Davis. Thank you.
    And I also want to thank the soldiers who have accompanied 
you today. And we look forward, if you would like to say 
something, to respond to our questions, we would welcome that. 
Thank you.
    Sergeant Major Kent.

STATEMENT OF SGT. MAJ. CARLTON W. KENT, USMC, SERGEANT MAJOR OF 
                        THE MARINE CORPS

    Sergeant Major Kent. Madam Chairwoman, Ranking Member 
Wilson, and the distinguished members of the subcommittee, 
thank you for this opportunity to report on the status of our 
family support programs that affect the quality of life and the 
well-beings of our Marines and families.
    As I travel around to see our units, both--they are 
deployed and at home stations, I continue to find highly 
motivated and dedicated warriors who know that they are doing 
important work for our Nation.
    The Marines are fighting our Nation's battles on all 
fronts, to include, you know, deployed aboard naval vessels and 
at every U.S. embassy throughout the world. They are truly 
living up to our motto of ``semper fidelis,'' always faithful, 
to our Nation and our corps.
    They also know that the Nation loves them and supports 
them. They also know that the family support programs that we 
speak about today is evidence of your continued support to our 
Marines who are in a high operational tempo. These programs are 
critical to addressing the quality-of-life needs of our 
families.
    I firmly believe that the well-being of the Marines and 
their families have an impact on the readiness and the 
retention of our corps.
    The rigors of military life are challenging to the Marines, 
especially to their families, who have to cope with 
separations, relocations, and sometimes isolations. These 
stresses are heightened during wartime and compounded by the 
Nation's issues, such as the state of our economy.
    The commandant has stated that Marines and our families 
have a reasonable expectation that the corps and the Nation 
will take care of them, and we continue to ensure that we live 
up to that commitment.
    In support of these programs is to provide the Marines and 
our families certain things to overcome the challenges that 
they face each and every day.
    Thank you for the long-lasting support, and I would be 
happy to answer any questions.
    [The prepared statement of Sergeant Major Kent can be found 
in the Appendix on page 88.]
    Mrs. Davis. Thank you.
    Master Chief Petty Officer West.

  STATEMENT OF MASTER CHIEF PETTY OFFICER RICK D. WEST, USN, 
             MASTER CHIEF PETTY OFFICER OF THE NAVY

    Master Chief Petty Officer West. Chairwoman Davis, 
Congressman Wilson, distinguished members of this committee, 
thank you for this opportunity to testify before you today. I 
consider this a distinct honor and privilege, not to mention 
one of the most important aspects of my position as a master 
chief petty officer in the Navy.
    I, like you, understand and very much appreciate that there 
is a definite linkage between the safety, security, and well-
being of our families and our services' ability to execute the 
mission.
    Our family members, those men, women and children who 
support our sailors, are both brave and strong. They are 
resilient and resourceful. And without a doubt, they are as 
every bit as dedicated and patriotic as those of us that wear 
the cloth of our Nation.
    They, more than anyone, fully understand that when their 
loved ones cross the bow of a Navy ship or deploys with one of 
our many units or squadrons, they become mom and dad, auto 
mechanic, handyman, and financial manager. Yet they and we 
often overlook is the fact that they are not alone.
    There are a myriad of programs and personnel standing by to 
support, which is the focus of our discussion today. It is a 
function of leadership to ensure our families are given the 
kind of quality of service they deserve. Just as important, we 
must inform and educate them as to the resources that are 
available. In doing so, our sailors have piece of mind and the 
ability to focus on their job knowing their families are safe 
and secure.
    We have programs in place that were created to assist our 
families in almost any situation. Through our fleet and family 
support centers--though our fleet and family support centers 
promote self-reliance, their cadre of outstanding staff 
personnel, along with our dedicated ombudsman, are at the ready 
to lend assistance or provide referral as needed. Each is 
engaged as I have ever seen.
    It has been stressing to every level of Navy leadership--I 
have been stressing to every level of Navy leadership that we 
can't expect our Navy families to find out about these programs 
on their own. We have made great strides in improving our 
family programs, as well as communicating the efforts, yet 
there is still a great deal to be done.
    We must continue to ensure that every family member knows 
where to find information about emergency preparedness and 
other programs that encourage family readiness.
    Additionally, we often focus our efforts in fleet 
concentration areas. However, we must also be mindful of family 
members who depart or reside outside of these areas where 
traditionally sailors deploy, distancing themselves from the 
traditional means of Navy support. And I am confident that we 
are continuing to make improvements in these areas.
    Madam Chairwoman, our families have learned to live with 
the anxiety of war and stress of the military lifestyle. We 
understand and accept it. But that doesn't mean leadership 
shouldn't continue to do whatever we can to lessen that stress, 
for I firmly believe that how we support the families of those 
we send into harm's way defines us as a Nation.
    On behalf of our sailors and their families, I would like 
to thank you for the role each of you has and will continue to 
play in ensuring our Navy families are well supported and shown 
the level of appreciation they deserve.
    [The prepared statement of Master Chief Petty Officer West 
can be found in the Appendix on page 110.]
    Mrs. Davis. Thank you very much.
    Chief Master Sergeant Roy.
    And I want to thank you all for staying within that very 
short timeframe.

STATEMENT OF CHIEF MASTER SGT. JAMES A. ROY, USAF, CHIEF MASTER 
                   SERGEANT OF THE AIR FORCE

    Chief Master Sergeant Roy. Chairwoman Davis, Representative 
Wilson, members of this distinguished subcommittee, I 
appreciate very much the opportunity to speak with you today 
about the issues important to our airmen and their families.
    I would like to first thank you, Chairwoman, and the 
members of this committee and the entire House of 
Representatives for the extensive support our airmen and their 
families receive from you. We especially thank you for your 
visits to our wounded warriors. Our wounded warriors and their 
families who support and care for them sacrifice much.
    Our American airmen have answered our Nation's call. No 
matter whether they are deployed overseas in contingency 
operations or whether they are deployed in places as a 
stateside base in support of the combatant command's 
requirements, our airmen are doing an incredible job.
    Their families also serve. They support and care for their 
own airmen, volunteering across the spectrum of support 
activities and--and comfort other members of their family who 
experience an often absent parent or spouse. Yes, our military 
families serve honorably.
    Developing and caring for our airmen families are one of 
our top priorities. We have focused much on our efforts in this 
area. Some of our recent initiatives have concentrated on 
expanding childcare capacity, increasing childcare for Guard 
and Reserve families, improving financial readiness, and 
improving education and development opportunities for spouses 
and children.
    Our airmen are experiencing an increased deployment 
schedule, so we are also providing an increased deployment 
support, not only for our airmen, but also specifically for 
family members. We offer programs and services across every 
phase of deployment.
    We have more than 14,000 families with special needs 
requirements enrolled in our special needs program, the 
Exceptional Family Member Program. We have a good process for 
identifying families and facilitating personnel moves in 
assignments based on a special needs family requirement.
    However, we have determined the need for a companion 
program to provide family support as they move from location to 
location. We are improving our program to assist these 
families.
    We are also working to level the playing field of our 
military children who experience differences in academic 
standards and transfer and acceptance of course credits. We are 
also concerned with viable elementary grade level promotions, 
graduation requirements, as well as eligibility in sports and 
extracurricular activity.
    We are working with states to loosen up the eligibility of 
unemployment compensation for our military spouses who are 
compelled to leave their job and be with their airmen. We are 
working to provide opportunities to train and license in 
portable career fields to abbreviate the job search timeframe 
for their spouse.
    We will remain engaged in our family support programs, and 
we plan to consistently improve these programs that we already 
have in effect.
    Thank you again for your continued support of our United 
States Air Force. And on behalf of America's airmen and their 
families, we appreciate the opportunity to be here today.
    I look forward to any of your questions.
    [The prepared statement of Chief Master Sergeant Roy can be 
found in the Appendix on page 119.]
    Mrs. Davis. Thank you. Thank you to all of you.
    I wanted to start with the statistic that I gave at the 
beginning of my talk. And, quite frankly, when I was in a 
meeting with many, many different spouses representing a number 
of different organizations, they shared the statistic that 94 
percent of the American people do not understand the sacrifices 
that they are making.
    You have spoken about a number of initiatives that we have. 
And I applaud them, and I know the members of the committee do, 
as well. I mean, there has been tremendous progress made. And 
yet, you know, there is this sense.
    And I wonder if you could just reflect on that. What do you 
think that represents? And what should we be doing, what should 
the Services be doing to perhaps change that feeling that 
somehow it is partly isolation and maybe there are--what do you 
think it reflects that so many of our families would feel that 
way, despite the fact that there are a number of initiatives 
that are there to help them and support them?
    Mr. Myers, you want to start?
    Mr. Myers. Well, what I believe is, I think the American 
public, it focuses on the military, per se. You know, when Mrs. 
Obama, when during the campaign, we had a meeting in the White 
House, and she indicated to us, she went around and met with 
normal families, and these family members would tell them of 
the sacrifices, the things they have to do, because the economy 
and so--well, then she talked to a military spouse about not 
beside only that, they had these continued deployments and so 
forth.
    So she didn't realize that the military family faced that 
many challenges. When I was in military, I did all my tours in 
Vietnam. I can tell you, there was hardly any focus on 
families. And I remember in Vietnam--when we left Vietnam, we 
went back, there was not the support we have today.
    So I think, little by little, people are becoming aware of, 
it is just not the military member that serves. It is the 
entire, entire family. And I think it is catching on, but we 
have a long way to go.
    But having these type hearings, having Mrs. Obama, Dr. 
Biden, and so forth talking about it, I think people are 
starting to get educated and understand the sacrifices our 
military members and their families make.
    Mrs. Davis. Anybody else like to comment?
    Colonel Lyman. I would make a comment, ma'am. I believe 
that the Guard and Reserve and the way they are dispersed in 
our communities is an opportunity for neighbors and extended 
family members to get a sense for the kinds of sacrifices that 
are being made.
    I think that these families many times approach their 
challenges with tremendous courage and grace. And the people 
around them may not see the kinds of pressures under which they 
are functioning.
    One of the things that we are talking about a lot is 
community capacity building and finding ways to, since these 
families live away from military installations in so many 
cases, to build awareness within their community, to build 
coalitions of those who can provide support, and I think, as 
those efforts continue, that--you know, and it might be in the 
form of faith-based kinds of organizations, schools banding 
together, I think it is an opportunity for the community to 
learn the kinds of sacrifices that those families make.
    Mrs. Davis. Anybody else?
    Yes, please.
    Sergeant Major Preston. Yes, ma'am. And I think that, you 
know, we have made a lot of progress at getting out to the 
American public. And when you look at the 2.4 million men and 
women serving in the services, we are less than 1 percent of 
the American population, so it is very, very small.
    The Army National Guard and the Army Reserve, very much 
apart from the Army perspective, lose out in our communities 
every day. And, you know, when there is a natural disaster and 
it is, you know, those soldiers out there that are providing 
relief in those communities, they are the ones that really 
directly impact and make an impact on Americans out there in 
those communities, you know, during natural disasters.
    But, you know, a lot of the things right now in the news 
have not been centered on a lot of what is going on now in the 
military. As operations begin to slow down and, you know, a lot 
of the bad news kind of stories now no longer meet the 
headlines, then, you know, it is not in the limelight, I think, 
for a lot of the American public.
    And I think that is why a lot of the military families feel 
that--you know, 94 percent of them feel that they just--you 
know, they are not connected out there with what the American 
public feels and sacrifices that they make every day.
    Sergeant Major Kent. Ma'am, Sergeant Major Preston touched 
on it, but I think the media has a lot to do with it. The 
negativity, you know, that they portray of the media, you know, 
sometimes, when--you know, when the military is doing a lot of 
positive things--I mean, you know, you ask the average military 
person, they are proud to serve, and they would do anything for 
this Nation, but you don't usually hear the positive things. 
You always hear the negative things from the media.
    Mr. Myers. One other thing that we are doing in Office of 
the Secretary of Defense (OSD), we have what we call an 
interstate compact that deals with 10 issues, like children go 
to different state schools. Every school teaches them 
different. So under this interstate compact, we have the states 
sign up for it, and they go out and let the schools know how to 
deal with military children.
    Payday lending was in force in that. Right now, we have 25 
states that have signed up for that, and we have got the 
biggest one, in fact, the great state of California, it passed 
the assembly in two committees, Education and Judiciary, and we 
are hopefully in the future it will pass. So that is getting 
the word out to the community.
    Mrs. Davis. Thank you. I will move on to the other members. 
And perhaps at some point later on we can come back to some 
other thoughts that you have.
    Mr. Wilson.
    Mr. Wilson. Thank you very much.
    And, Mr. Myers, in my opening statement, I indicated my 
interest in promoting effective and efficient coordination of 
different programs. I would like to know how you feel the 
programs are working together.
    And then, I agree with Sergeant Major Kent, that a lot of 
the good news just doesn't get out, the Yellow Ribbon program. 
Could you sort of review other programs? And what is being 
done? I know, as a military family ourselves, I am so impressed 
by what is being done. But just generally state for all of us 
what the programs are and as to their effectiveness.
    Mr. Myers. We have a number of programs. And we are working 
well with the Services to meet their needs.
    Recently, we had a conference where we brought in Guard and 
Reserves just to find out how the programs were working and 
what they need, especially on the Guard and Reserve, because 
they are displaced from the community.
    So we have programs just like a family support assistance 
team that goes out there before deployments. We will send 
military family life consultants, financial advisers to augment 
them for pre-deployment, post-deployment, leaving and so forth. 
They are displaced.
    We have worked with the Young Men's Christian Association 
(YMCA) to give free membership when they deploy to not only 
them but their family members. We have about 19,000 signed up 
for free membership in the Y, 29,000 family members.
    We also have a military family--we have a Military 
OneSource where we will give non-medical counseling, and we 
have done it for 12 sessions, and the medical community really 
likes it, because it is pre-screening.
    A lot of the people have problems that we have trained 
consultants. There are PhDs trained in consulting and so forth 
that can talk to them. We have financial counselors and so 
forth. And on these military family life consultants, we have 
actually put them at--with the Guard and Reserves, we have put 
them in our Department of Defense Education Activity (DODEA) 
schools overseas and our schools in the states.
    We have them in our family child development center just to 
talk to children about issues, because, you know, we are 
starting to see behavioral problem with all of these 
deployments. Plus, all the Services have programs that augment 
them.
    The problem that we have with a lot of these programs--
there are a lot of programs--is making sure people are aware of 
them so it is communication and then getting out this is 
available and so forth.
    In early September, we are having a conference for 1,600 
people, bringing all these people from the military together, 
consultants, medical, people so--just to let them know what the 
programs are.
    But also the military services also have great programs 
that support our family members. And when I go overseas, the 
first thing a military member says to me is, how are you taking 
care of my family? Things are going well. If we are taking care 
of their family, they can focus on the mission.
    Mr. Wilson. And I am really grateful to serve with 
Chairwoman Susan Davis. This committee works together. And we 
want to be a resource for each of you and what--I like your 
input.
    I indicated from each of you as to what additional efforts 
can be made by way of either policy or resources. What can we 
do as a Member of Congress to help you? And we can just begin 
right there in and on over.
    Master Chief Petty Officer West. Yes, sir. As far as 
policies and resources, I would take that for the record back.
    I will tell you the support that you provide on a daily 
basis has been phenomenal. And Mr. Myers down here in the 
center, the support he provides for us is, as well, incredible.
    The five things I see for these programs to make it out--
and we have kind of talked around it even from the first 
questions--is leadership, education, communication, execution, 
and then taking that feedback and making those programs work 
for us.
    I think there is things that we can do as far as the 
education piece to those families that, as in my opening 
statement, that we could do a lot better. And that is what we 
are working. But as far as everything that is in place, I would 
have to take that back overall to take a look at it, sir.
    [The information referred to can be found in the Appendix 
beginning on page 145.]
    Sergeant Major Preston. Sir, one of the things I talked 
about in my opening statement was--was access to medical care. 
And as I travel, you know, probably the biggest concerns I get 
from family members is, you know, we have great health care 
programs that are out there, but it is sometimes the lag of 
getting into those health care and getting accessibility to it.
    One of the things that was mentioned in one of the opening 
statements, too, was health care out there, particularly 
counseling for children. You start looking now at, with the 
pace and tempo, what are we providing for children out there in 
the schools?
    And one of the things that we are looking at doing now 
upcoming is, with the Chief of Staff of the Army, a 
comprehensive fitness program to really get in and look at the 
five domains of fitness.
    And it is more than just physical fitness, but it is 
mental, it is spiritual, it is family, you know, to go in there 
and start to build resiliency, you know, among our soldiers and 
their families to better posture them for, you know, the 
current pace and tempo of operations that we are offering----
    Mr. Myers. I believe one of the issues we have to work on--
for a lot of these programs, in the past, we have been dealing 
depending on the supplemental funds. So we have to start--and 
we are starting--to move them into the baseline.
    When we went to the White House, Mrs. Obama and Dr. Biden 
had a bunch of focus groups just talking issues. And what she 
said, she wants these family support programs engrained in our 
government so, long after their administration has gone, these 
programs are continued.
    When I talk to the families--their one fear is, if the war 
winds down and so forth, these programs are going to stop. And 
I think that would be a great disservice to all of our people.
    Colonel Lyman. I would speak specifically to the Yellow 
Ribbon Reintegration Program, which really is less than a year 
old in its push nationwide. Of course, it has roots that go 
further back in Minnesota.
    But that program, I think, the message that we would say 
is, is to continue to support that, give it time to develop and 
grow. It has been funded at the headquarters level in the 
baseline budget for 2010. Excuse me, in--yes, for 2010. And we 
are looking to extend that in the out-years.
    And so that would be--that would be my recommendation. 
Thank you.
    Sergeant Major Kent. Sir, as we travel around speaking with 
numerous family members, thousands of family members, the big 
issue is medical care. We have a shortage of doctors right now, 
so it might take a family member weeks to get in just for a 
minor thing.
    So the issue is medical care, shortage of it, but quality 
is there, but it is a shortage of the doctors.
    Chief Master Sergeant Roy. Congressman, thank you for the 
question.
    Along with Mr. Myers, I would like to add a comment on 
special needs. I opened it up in my statement and mentioned 
that. And it is something that we have been working.
    We realize that our program, we need to continue to work on 
that. I mentioned a companion program along with that. And we 
have added that to there, along with, as Mr. Myers said, the 
supplemental piece, we are trying to add that into our 
baseline, so that would be one thing.
    The other thing would be military education programs, as I 
mentioned before. And I listed somewhat of a litany of things 
that could be addressed by this committee here.
    Also, the Guard and Reserve for childcare for Guard and 
Reserve. We are teaming with the Guard and Reserve, and what we 
are trying to do is make sure that their families, their 
children are taken care of, as well. And that is an area that 
we could continue to use your help on, too.
    Mrs. Davis. Thank you.
    Mr. Wilson. Thank you.
    Mrs. Davis. Thank you, Mr. Wilson.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    I think everyone knows that the family support programs are 
absolutely critical to our military families. And I want to 
thank all of you for your service and for your efforts, but 
especially I am concerned about those in the Guard and Reserve 
who do not have the built-in community support of an active-
duty base.
    It is for this reason that I do strongly believe that the 
Yellow Ribbon program must be as effective as possible. And, 
Colonel Lyman, I want to thank you for your testimony. I will 
have some questions here in a second for you.
    I have recently heard concerns raised in Iowa, where I am 
from, that the Yellow Ribbon program, while it is well 
intentioned, has some critical flaws. And I understand that it 
is, you know, a fairly young program, although, of course, the 
enduring family program preceded it.
    But it has some critical flaws in its implementation that 
has undermined its effective support for National Guard 
families. And I have got four things that I have heard so far; 
then I will have a few questions.
    One, the program does not feel personal. It can be 
alienating to families due to overuse of PowerPoint 
presentations--I know that probably that elicits a smile from 
all of us, right--rather than group discussions or active 
engagement of participants.
    Second, that meetings are often referred to as drill-back 
and are held in Guard facilities on drill weekends, which has 
led to decreased family participation due largely to the 
misperception that they are only for servicemembers.
    Third, that whereas the enduring family program, which 
preceded the Yellow Ribbon program in Iowa, included the 
Veterans Affairs (VA) at meetings in order to provide 
servicemembers and their families with one-on-one counseling 
and assistance on filling out paperwork. The current meetings 
do not involve the VA, even though we have a VA hospital in 
Iowa City, leaving some concern that families are not aware of 
what benefits are available to them.
    And, fourth, that the post-deployment meetings are not 
required to be held over a certain period of time, which has 
led to the meetings sometimes being scheduled very close 
together, despite the fact that oftentimes the stress of a 
post-deployment period does not kick in for several weeks or 
months after a servicemember returns home.
    So, Colonel Lyman, I am very interested in working with you 
to make sure that the Yellow Ribbon program works for our Guard 
families. And specifically, I hope you can address the concerns 
I have just raised, as well as the following, and I will list 
these four, and then you can respond now or in writing, if you 
would like, as well.
    How is it assured that meetings are family-friendly and 
help in an atmosphere where families feel comfortable 
discussing the challenges they are facing? How is information 
about the meetings disseminated to the families and 
participation encouraged? How is feedback gathered from the 
families? That is very important feedback. And how were 
existing family support programs and their best practices 
integrated into the Yellow Ribbon program, if at all?
    Colonel Lyman. And thanks for listening to my lengthy 
statement, as well.
    Colonel Lyman. Of course. Let me preface what I have to say 
by saying that, in my current role as the assistant director of 
individual and family support policy, I don't sit in the Yellow 
Ribbon Reintegration Program office.
    However, I am quite acquainted with it and I would like to, 
in fact, give them the opportunity to respond in greater length 
to some of the things you are saying.
    However, I can address my perception, which would be that, 
as far as being family-friendly, there have been some advances 
even recently in cooperation with military family and community 
policy. They have provided and funded kits that provide 
materials to help care for and entertain and make family-
friendly these events.
    They are providing these to each of the joint force 
headquarters in the National Guard, that includes movie in a 
box and other kinds of resources that children would find 
entertaining so that they are not sitting there saying, you 
know, ``What am I supposed to do as a child?'' And to try and 
involve them in the events.
    I attended down in Norfolk a pre-deployment fair put on by 
the Marine Corps, and there were other Services involved, also. 
Many, many family members were present. It was held in a very 
nice facility that was far from any base.
    And I know that at the local execution level, sometimes 
these may be placed at armories or head bases--there is also, 
however, the recommendation that they be held in a location 
where the family can feel relaxed and get the message that they 
are important to the military and that we want them to 
participate and feel welcomed.
    The feedback from family members, the Centers of Excellence 
for Yellow Ribbon Reintegration receives, in addition to 
reports of how many attended these events, they receive 
feedback reports. They become the clearinghouse for discussing 
best practices, pushing those ideas out so they will become 
part of other states' efforts.
    The advisory group that is working above the Yellow Ribbon 
program has just been established, will be staffed by three-
star-level individuals to also provide some guidance and 
direction to the program.
    I know that the events that I have heard about and the one 
that I attended, we did fill out a very detailed feedback form 
and I have provided that to them with some very constructive 
feedback, because I was out speaking to some of the different 
persons, families who were in attendance.
    So I know that at a local level, there is that effort to 
assess the event, to make sure that they are continually 
improving it. I am sorry to hear that there have been some 
negative experiences. That is something that I think could be 
very detrimental to the program.
    And we have got to make sure that across the board we have 
a high level of excellence and the people feel like, ``This is 
something I want to come back to,'' because we provide these at 
30, 60, 90 days. We want them to come back when it is offered 
again so they can receive information about programs that would 
fit for their level of recovery and development following their 
deployment.
    Mr. Loebsack. Thank you.
    Mrs. Davis. Thank you.
    Mr. Loebsack. And maybe there are just some growing pains 
in the program, too, to be quite honest.
    Colonel Lyman. Of course.
    Mr. Loebsack. But I thank you very much. And any others 
want to respond in writing to my questions, I would be happy to 
take that, as well.
    Thank you, Madam Chair.
    Mrs. Davis. Thank you.
    Mr. Kline--I am going to go on to Mr. Kline, but perhaps 
will pick up on that in a little while.
    Mr. Kline. Thank you, Madam Chair.
    I am going to pick up on that for just a minute, because 
the gentleman from Iowa has described a situation which is the 
opposite, the antithesis of what was thought of when the Yellow 
Ribbon program was put into effect nationwide.
    And it is true that, to a large extent, some of the Yellow 
Ribbon programs in the legislation now came from Minnesota's 
Beyond the Yellow Ribbon program. And I will tell you that the 
program now in Minnesota looks nothing like what was just 
described.
    The VA is always involved. We have a very large VA hospital 
there. They are there in strength, the veterans service 
organizations (VSO) there, the Lutheran Social Service, and 
many others are there. I have attended some of these events, 
and there are wives and husbands and mothers and fathers in 
attendance. They are not held in armories in Minnesota. They 
are held in very, very nice facilities.
    There are things in the program such as marriage retreats 
at one of the finest hotels in the Twin Cities that is nothing 
like an armory. The program, if it is working as the gentleman 
described, we ought to throw it out today, but I can just say 
without getting into a state-versus-state thing that the 
potential is there and the example is there for it to work and 
do what it is supposed to do.
    And the running the programs together in terms of time is 
exactly contrary to what I believe the law says and certainly 
the intention was, is you would come back at a 30-day period, a 
60-day period, and a 90-day period, so that leadership can, in 
fact, assess the progress or perhaps lack of progress that 
might be being made in reintegrating.
    So that is a terrifying story, and I would love to talk to 
you about that later.
    A couple other really quick things. The chair mentioned the 
94 percent number. We were talking about families who perceive 
that their sacrifice isn't perceived. And I am almost 
surprised, Madam Chair, that it is not 100 percent, because, in 
one sense, that is kind of the human condition. Until you have 
walked a mile in my shoes, you can't really appreciate the pain 
that I am suffering.
    And it is absolutely true that military families arguably 
anytime have got some stresses because they are being moved. 
They are having to pack the kids up, move them out of school, 
even without the stress of deployment.
    So it is not at all surprising to me that military families 
feel like their sacrifices aren't appreciated. And I certainly 
that while we have been doing everything we can to ease their 
sacrifice, but I don't know that we could ever make public 
awareness to the point where they--where people--families would 
believe that everybody understands that they are suffering.
    And then--and finally--or not finally--I still have time, 
so it is not finally. A number of you have mentioned--and, 
Sergeant Major Kent, you really hit on it, that there were 
concerns about medical support. And I think when you were 
talking about lack of doctors, you were talking about when the 
family goes to the naval hospital or perhaps the Army 
hospital--there aren't doctors there.
    And we need to be alert to that. This subcommittee has got 
a lot of concern about that. And we should be paying close 
attention as we have looked at all sorts of arrangements to 
make sure that there are, in fact, enough doctors.
    But a couple of you mentioned TRICARE. My family used 
TRICARE and Champs or whatever. I forgot whatever preceded 
that.
    Mrs. Davis. CHAMPUS.
    Mr. Kline. Yes, CHAMPUS, I knew it was something like that. 
And we didn't like it, frankly. It is what we had, didn't--
seemed like it didn't pay enough. We found too many doctors 
that wouldn't accept it.
    And so I hope you will continue to tell us about those 
problems. If we have communities where you cannot find a doctor 
who takes TRICARE, that is unacceptable, and we need to work 
that.
    And then, finally, because the light is turning yellow, we 
now have a lot of programs. Mr. Myers, you listed a bunch. We 
have some read-ahead material here. There are just all sorts of 
family advocacy programs.
    And one of the things I think you said, Master Chief, is 
that, gosh, we need to get the word out to them. And I am 
struck that we have had this Military OneSource operation, 
which is there all the time, 24/7, literally where people can 
call in and ask questions about everything, what services are 
available, where the nearest babysitter is, practically. I 
think it is a fantastic resource.
    And I hope that we are exercising that. And if it is not 
working and if it can't address those concerns about, well, 
what is available to me, we need to fix that.
    My perception is--I have visited a OneSource center. I have 
talked to the people who provide that service. My son and his--
he is in the active in the Army now, and his family is very 
much aware of that. We need to make sure that people know how 
to use it and make sure it is doing what it is supposed to do.
    I see my--I have exceeded my time, and so I yield back.
    Mrs. Davis. Thank you, Mr. Kline.
    Mr. Kline. Thank you.
    Mrs. Davis. Dr. Fleming.
    Dr. Fleming. Thank you, Madam Chairwoman.
    I have heard a couple of comments. And, of course, Mr. 
Kline just mentioned the fact that adequate access to health 
care is a problem. My background, I was a physician in the Navy 
back in the 1970's. And we were really well-staffed, and 
getting CHAMPUS in those days was not that difficult.
    Being a practicing physician, though, in recent years, we 
found that the reimbursement was horrible for TRICARE. And you 
often didn't get it at all. It actually began to cost--we had 
calculated it cost more money to file for the money than it did 
to actually receive the money.
    So it became--I think the comment was charity care or 
something like that. That is literally the way it was our 
experience.
    Now, I know there have been some changes in that, one being 
that there is electronic filing of claims now that we didn't 
have. So I am sure that is helpful.
    But in visiting around the--my district, I am still running 
into issues with that, not just with CHAMPUS, but also on base 
care. I visited Fort Polk recently, and a young lady I visited 
with was 14 weeks pregnant and still could not get an 
obstetrical appointment. That is atrocious.
    Now, in that specific case, all the doctors are deployed. 
But there are plenty of--I shouldn't say there are plenty of 
obstetrical physician in the area, but there are enough that 
she shouldn't have to wait to 14 weeks.
    Yet I am shown surveys that the satisfaction rates among 
members who are receiving CHAMPUS care are very high. So I am 
really perplexed by what I saw on the other side of the fence, 
what I am getting as feedback, but then the reports that I am 
getting.
    So I would really open this up. Perhaps, Sergeant Major 
Preston, you might--since you kind of led with that--you might 
want to start by commenting on that.
    Sergeant Major Preston. Yes, sir.
    Sir, you are exactly right. And, you know, the challenge 
you have got is your Army's health care professionals, they 
belong to units and organizations. And when that unit or 
organization deploys, of course, they take their health care 
professionals with them.
    What we are supposed to do is be able to continue providing 
health care to the families that are left behind, you know, 
through the TRICARE system by pushing, you know, our families 
off the installation to those surrounding communities.
    And, you know, from Louisiana, you know Fort Polk. There is 
not a lot of infrastructure there around Fort Polk to really 
provide immediate care. And I am surprised that it was--it has 
taken that long for a young lady down there to get that care in 
that length of time. So that is the challenge that we have been 
dealing with.
    And, of course, when you look at the number of health care 
providers out in the civilian community that take TRICARE, many 
of them were left with a bad taste in their mouth from dealing 
with TRICARE before, because of the length of time it took to 
get reimbursement.
    You know, I myself have dealt with a lot of cases overseas, 
particularly in Germany, where, you know, we have pushed family 
members out on the Germany economy to receive health care. And, 
of course, now you are dealing with, you know, health care 
providers in another country trying to get reimbursement. And 
that acerbates the length of time to get the payment in.
    I have sat down with the TRICARE management team, and they 
have laid out what they have done now to restructure and 
streamline that process to improve their system. So from where 
it was to where it is today, I would tell you it has come a 
long way and it has improved, but, you know, we have still got 
a ways to go. And there are some gaps in seams out there that 
need to be corrected.
    Dr. Fleming. Yes. Before I go to other panel members, let 
me insert that, really, CHAMPUS got the reputation--or TRICARE 
got the reputation that, of course, private insurance was the 
best, Medicare second best, Medicaid third, and, of course, 
TRICARE was the least desirable form of reimbursement.
    And oftentimes--and maybe it is the cynicism that we 
physicians sometimes have about that--it seems to work in favor 
of the payer for things to be inefficient. And that is one of 
my worries about--slightly changing the subject for a moment--
about a government-run health care system, is we may see the 
same sort of things, again, longer waiting lines, rationing, 
and so forth.
    So it really comes down to how quickly--how timely payment 
is made and how adequate. There are plenty of doctors in this 
country who--and I am sure there are many more doctors, like 
myself, who for years saw patients knowing we weren't getting 
paid adequately, but that was an acceptable thing for me.
    But there comes a point when you just can't afford it any 
longer. And so adequate payment, timely payment is key for 
access of care.
    Sergeant Major Preston. And if I could add one thing--and, 
you know, Fort Polk is one of those communities that is 
somewhat isolated. And when I travel--last week, I was in 
Alaska and, you know, very isolated communities up there. And 
that also acerbates the challenge.
    And, you know, health care--there is a shortage of health 
care professionals, you know, in our country right now. And 
that hurts us not only from a recruiting perspective and 
filling our ranks, but also what is available outside of 
military bases.
    Mrs. Davis. Thank you, Dr. Fleming.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I, too, have some questions about, when there are so many 
committees and so much organization devoted toward helping 
medical and families who either have medical needs or long 
deployments, how are they missing the message?
    And so I also agree with my colleague when he talks about 
Military OneSource, et cetera, et cetera. And I look at your 
framework and I look at all your efforts, and yet when I go and 
I talk to the families and I say, ``Do you know there's such-
and-such?'' And they say, ``No, they don't.''
    So somehow or another, we are still missing the mark. And 
so I sat and thought, and I said, ``Well, what would I do if I 
wanted to get the message out in a military community?'' I 
would put the phone numbers on a grocery bag. I would ask all 
the grocers in the community to put the phone number on the 
grocery bag, because that is where people go.
    I would put the number in a doctor's office. I would put 
the number by a pharmacy. I would put the number wherever 
anybody is forced to stand in line. That is where I would put 
the numbers, because for all the money that we are spending and 
for all the good effort, somehow or another, they don't know.
    And I have been on ships and I have asked them, and they 
tell me they don't know. And I have been abroad. They don't 
know. And I have been on local bases, and they don't know. So 
something is missing. And I just would put that out there that 
I know it must be very frustrating to you, also, that you have 
these services.
    Now, sometimes they do know, and then they tell me that 
they can't have access because it is actually not available, 
that you simply don't have the personnel to provide. And I have 
heard the stories about TRICARE. In my own family, we have 
experienced that with a cousin of mine.
    I would also like to address one other thing. I was a 
military spouse. And my husband was born and brought up--born 
on a military base. And I would say there is a different mood 
now.
    I would say that the families are under a great deal of 
stress and that they have shifted in the sense that we always 
felt that people knew. Sure, they didn't know exactly how hard 
some things could be, but they kind of knew. And now, even 
though families know that we love them and that we honor them, 
they still feel more than ever before that we don't really know 
what is happening to them.
    And I would attribute that to several factors. And one, I 
would say, is that constant deployment is taking its toll, that 
families don't have a chance to rebuild. And I am very 
concerned about that. Those prolonged deployments, and the kids 
being spread out around the country, versus being on a military 
base and all of them in the same school. That is contributing.
    I heard a horrific story about a woman who had an asthma 
attack. Her husband is deployed. She had an asthma attack, and 
her little seven-year-old packed the bag and the little kid and 
went next door. This is isolation, and this is really something 
that we have got to address.
    The other part I am concerned about is what is happening to 
the children whose families have experienced injury. They have 
to move, and they have to go to a community, say, if they come 
to Walter Reed or they go to some other place. What is 
happening to those kids?
    And so that is what I really want to ask each one of you in 
particular. What is happening to the children once we have a 
wounded warrior and we have gotten past the first phase? What 
is the child's life like? What are we doing? Are we leaving 
those kids unattended inadvertently by not making sure they 
have constant, constant support and that they are surrounded by 
people who understand their story?
    And, also, I would like you to please address dual 
deployments, because I think that that--it is terrible to have 
one parent out of the house when you are three years old. It is 
completely devastating to have both and not to know--and for 
them to keep being deployed.
    So, Sergeant Major Kent, I would just start with you----
    Sergeant Major Kent. Yes, ma'am.
    Ms. Shea-Porter [continuing]. If you would be willing to 
answer. And I would like to hear your perspective and what you 
can do or what you believe can be done with the dual 
deployments, the long deployments, and the children of wounded 
warriors.
    Sergeant Major Kent. Thank you very much, ma'am.
    First of all, I would start off with the wounded warriors. 
About two years ago, we stood up a unit called the Wounded 
Warrior Regiment. It is commanded by a colonel, and they have a 
sergeant major. And we have a unit on the West Coast, and we 
have a unit on the East Coast.
    And they have a 24-hour call center. And even if a wounded 
warrior exits the Marine Corps, they still make contact with 
them and their families. And this is a 24-hour call center.
    So we ensure that we lose nobody in the system. And we are 
confident, you know, that it is working, because we sent out 
teams, and they have town hall meetings, and they talk to 
families constantly, and we are confident that it is working 
because the chain of command is set up like any other unit, and 
they keep tabs on these wounded warriors 24 hours a day.
    And that call center is set up. And, you know, and I 
welcome you, ma'am, you know, to go down to Quantico, Virginia. 
The headquarters is there. And they can give you a thorough 
brief on, you know, exactly what they do there.
    Dual deployments for our warriors, we try not to do that, 
based on leadership. Now, sometimes, if they are in a critical 
job, it is a possibility that, you know, both of them may have 
to go. But leadership is very conscious and not to deploy two 
people at the same time, especially if they have small 
children. And we are confident, you know, that the leadership 
is actually looking at that.
    But sometimes, if they are in a critical job, you know, I 
am not going to sit here and just tell you anything. If they 
are in a critical job, they may have to go forward, both of 
them.
    Ms. Shea-Porter. Do they have an appeal process? Is there 
somebody they can go to if--and ask for it to be reviewed if 
both are being deployed?
    Sergeant Major Kent. Yes, ma'am. We have a chain of command 
all the way up. And I will be quite honest with you. The 
commandant and I, we get e-mails from Privates First Class 
(PFCs). So, you know, the Marines are not shy about bringing up 
issues.
    Ms. Shea-Porter. Thank you.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    Mr. Myers, you made the comment about special needs kids 
and autism and made the legitimate point that there are more 
special needs kids than just autistic kids. And I agree with 
that.
    I think, as you know, one of the problems our parents of 
autistic kids have is that autism gets caught up in this whole 
issue of mental health parity, which is autism doesn't get 
treated as a physical illness. It gets treated as something 
that a lot of insurance hasn't covered through the years and in 
a way that I think is unfair.
    And so that has created some gaps in coverage. I think that 
is where some of the interest has come from. And then, as you 
know, some of the therapies for autism are quite comprehensive 
and people-power-intensive and puts them in a special category, 
too.
    But I share your need about special-needs kids. I think you 
and I have talked before about the fact that my own view is 
that base commanders ought to about once a quarter or so hold a 
town meeting for special-needs parents and families, because my 
experience is that parents for a variety of reasons, the 
transit in and out of military bases, transit in and out of the 
military, but also because of the Health Insurance Portability 
and Accountability Act (HIPAA) and privacy concerns, that there 
may be, you know, ten families on a base with kids with severe 
asthma, but they won't know each other, because the caretakers 
can't tell the other folks that they have there.
    This happened to me with a group of autistic kids. And I 
think--and I did talk about this before--where I asked the Air 
Force base to invite parents of autistic kids where I can meet 
with them.
    And, of course, if they didn't want to meet me, they didn't 
have to. But we talked for, I don't know, 15, 20, 30 minutes 
before I realized that they had never met each other. They 
didn't learn a damn thing from me, but they learned a lot from 
each other about what services were available.
    And, I mean, it was just like a tremendous weight off them 
that they actually could talk to parents. Well, I think that 
would be the goal. I think that is what probably what would be 
accomplished with some kind of an ongoing, regular set, 
everybody in the military at any base have--with their 
families--have some kind of a town hall meeting for parents of 
special-needs kids.
    And then, after the meeting, there could be the table for, 
you know, different kids have different needs, but that could 
be helpful, because it really is a challenge for our military. 
It is a big determinant of where people in the military want to 
go to be stationed is, what is there for my family? And I think 
it helps to have a supportive system.
    I wanted to ask one parochial question, if I might have you 
all help me. And it is about public school buildings. We have a 
situation at the Little Rock Air Force Base where a school 
building on base, owned and operated by the--I mean, operated 
by the local school district, who has the responsibility for 
replacing it, that everybody agrees is inadequate. And it has 
been an issue sitting out there for some time.
    The base commanders have been very aggressive--
appropriately so--about making the case to the local school 
district that the building should be replaced. And the most 
recent disappointment is--and it was one of the reasons I voted 
for the stimulus bill, because there were dollars there to go 
for school districts around the country to help build school 
buildings. They are not going to use any of the federal 
stimulus dollars for this school building on this federal 
facility.
    And so my question is--and maybe this is not an issue that 
you all deal with--do we have other issues with public schools 
on military bases? Are they maintained well? Are they treated 
appropriately by the local school districts? Is that something 
any of you have looked at?
    Or, Mr. Myers, I will direct it to you.
    Mr. Myers. I am not familiar off the top of my head about 
public schools on bases. You know, we have Domestic Dependent 
Elementary and Secondary School (DDESS) schools on some of our 
bases and DODEA schools overseas. But I would be more than 
happy to look into that.
    Dr. Snyder. If you wouldn't mind doing that. I mean, I feel 
for the school district, because the school district, like most 
of them, they do not have an overabundance of money. On the 
other hand, I think--the point you all are making today is we 
have a special responsibility to our military families.
    And I talked to one parent who said it is a real downer 
when you are overseas to get an e-mail from your kid that the 
roof leaked again--literally leaked again--and hit his desk 
this time and ruined his papers and things.
    But, Colonel Lyman, do you have any comment?
    Colonel Lyman. Well, I was just going to say, there is a 
working group that is between DOD and Department of Education 
that deals with a host of education issues having to do with 
that special population, and particularly with those 
communities that immediately surround military installations.
    And I represent the Reserve Component on that committee. 
And this is something I could certainly bring to their 
attention.
    Dr. Snyder. Yes, well, and maybe it is an isolated 
situation. The very supportive community--and it is a district 
that doesn't have an abundance of money. On the other hand, it 
is a, I think, a priority.
    The base is willing to donate land outside the perimeter 
that is federal land for the facility. That deals with some 
security issues, but also that is a big chunk of construction, 
if you have the land available. And it would be a great site.
    My time is up. Thank you.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chairman, thank you.
    And I want to thank those of you in the--at the panel for 
your service to our Nation. And I want to piggyback on Mrs. 
Shea-Porter.
    I have told this story many times, and I have got a reason 
to tell it again, to get to the point of what I want to ask 
you. Back in 2007, I was invited to national reading day to be 
at Camp Lejeune, Johnson Elementary School. And as I finished 
reading Dr. Seuss to the children, there were 15 kids in the 
library, 6 years of age, 5 and 6.
    And the questions were, as a child would ask, ``Do you have 
a dog?'' ``Have you seen the President?'' Those kind of 
questions. Now, the last child--this is a point I want to get 
to--the last child--and I made the announcement, ``This will be 
the last question. I have to leave.'' The librarian was 
standing there, and my staff, a retired Marine, Jason Larry.
    And the little boy looked up at me and he said, ``My 
daddy's not dead yet.'' ``My daddy's not dead yet.'' I was so 
shocked that it had to be at least 40 seconds--I couldn't 
respond. I came out with a response of, ``Well, God loves our 
moms and our dads.''
    And the reason I mentioned that, because I believe it was 
Sergeant Preston, in your comments--I was late getting here--or 
maybe your answer to a question. With knowing the shortage of 
psychiatrists, psychologist and medical doctors in the 
military--and another point I want to make before I ask the 
question.
    I won't call the name of the Marine, but I was there for 
the sermon. He had given a guide dog to a Marine who was badly 
burned, badly burned. And thinking about the young man that 
said this about his father, and thinking about this corporal 
who was receiving the guide dog, and knowing how badly he was 
burned, are we able to really help those children who, at five, 
six, seven, eight, think about their daddy not coming back or 
mom not coming back, or one coming back who is paralyzed, or 
one coming back whose face will not look normal again?
    Do you really feel that, in this shortage of medical 
professionals, that we are doing--I know we are doing the best 
we can do, but can more be done for those children? This preys 
on my heart for a long time, that these young children that 
would grow up with that different look out of the face of a 
father or mother or maybe their daddy didn't come back.
    Do you feel that--under the circumstances, I am sure you 
do, that we are doing the best we can--but can more be done? I 
will go to you, Sergeant Kent, because I think you meant--I 
think you meant--Preston, excuse me. I think you mentioned 
counseling for children in a general statement.
    Sergeant Major Preston. And, sir, I will tell you that, you 
know, across the board, I mean, for all of us, we are working 
right now focusing on getting those counselors and those 
services into all of our schools.
    And one of the things that, you know, General Casey said 
last week as we were working through the details of this 
rollout of a comprehensive soldier fitness program, I mean, 
when you look at the five domains of fitness, one of those is 
families. It is building resilient families out there that are 
able to cope with the stresses of life right now that we have 
put on them.
    So one of those is being able to get those services out 
there into all of our schools and to be able to take care of 
the children, as they are growing up in all different ages.
    And we have done some of that right now with the child 
development new centers that are out there. And, of course, the 
next step now is a lot of our schools which are tied to public 
school districts.
    And there are a lot of best practices out there that are 
going on. We have got, you know, now family liaisons in a lot 
of the schools out there that have large military populations.
    You know, one of the things that I am very proud of, for 
the city of El Paso, you know, what they did was they have 
hired family spouses to work as family liaisons in the schools, 
where they have large densities of military children to help 
the children and the families integrate into the school 
district, but then also that they are there all the time with 
the children, so those that do need counseling and do need 
help, you know, we are able to get more of those services 
focused on the individuals.
    Mr. Jones. Does anybody else have a comment?
    Yes, sir.
    Mr. Myers. A couple things. One of the problems that we 
have is, as we talk about mental health care and its access to 
health care, we had a Senate committee where we had spouses 
talk and they rated health care excellent, but access poor.
    And what we have found out, families with children, a lot 
of TRICARE providers will--a lot of health professionals will 
not accept TRICARE. So constantly we hear at Fort Campbell, 
these families have to travel to Nashville, an hour-and-a-half, 
to get the care and back.
    So what we are doing is Secretary Thomas, he is actually 
going to go to Fort Drum and Fort Campbell with the TRICARE 
people, the health care people, just to find out if we can 
break it loose.
    Now, dealing with children, we have a great relationship 
with ``Sesame Street.'' They did a national TV--the first one 
was dealing with the deployments. The second one that they came 
out recently was when Dad or Mom comes home differently. And 
these are family members who participate, losing arms and so 
forth.
    The next one they are going to do is loss of a loved one. 
So this helps the children. Plus, we have these family life 
consultants and our child development centers at the base just 
to talk to children.
    But our children, they have it rough. There are military 
members that will not put their uniform on at home. They leave 
it at work, because the kids, they see that, they think Dad or 
Mom is going to be deployed.
    Secretary Snyder--I mean, Dr. Snyder, when he said when he 
leaves for Washington, puts his tie on, the kids know you are 
leaving. So it is a big impact.
    Colonel Lyman. May I?
    Mrs. Davis. Yes.
    Colonel Lyman. One program that has been mentioned--and I 
just wanted to emphasize it here is Military OneSource. That is 
a program--I had a good friend whose son died in a tragic car 
accident, 17-year-old. He was just being eaten alive with his 
grief, suggested he call Military OneSource.
    He called them. Every time I am with him and he runs into 
somebody, he says, ``This guy turned me on to OneSource. I got 
counseling that really changed my situation.'' And I think that 
is an opportunity that is available to every family nationwide, 
because there are contracts with therapists in communities.
    And at one time, the session limit was six sessions per 
issue. That has now increased to 12 sessions per issue. That is 
a marvelous resource for anyone to make that call, get a 
referral to a therapist within easy distance of their home. I 
believe in most cases they would be able to do that and get 
that help.
    Mr. Jones. Thank you, Madam Chairman.
    Mrs. Davis. Thank you. If I could just follow up with that, 
are you all able to do public service announcements, getting 
that message out with the number? Is that something that all 
the major broadcasters, as well as cable, have accepted? And is 
there something that we can do to facilitate that?
    Mr. Myers. That information is getting out on all the 
bases. We are doing TV announcements for overseas, base 
newspapers, and so forth, and the word is getting out, because 
I think this year the calls to Military OneSource have probably 
increased 40 percent.
    So families know about it. They are calling and so forth. 
But you still find these little pockets where they don't know.
    So as I told you, Secretary Thomas is going out just to get 
the feedback, to pass the word, get the information out and so 
forth. And National Military Family Association (NMFA), they 
really help us getting the word out. So I think the word is 
getting out now.
    Mrs. Davis. If I could follow up on the issue of children, 
because I think that people think about the impact of 
deployments on children ages 6 to 12. And I think, Mr. Myers, 
you were at the Baby Caucus meeting when they talked about the 
impact zero to five, the Defense Manpower Data Center (DMDC) 
found that children between those ages were highly impacted.
    And could you comment on that? And what do you think should 
be done? Are there additional studies we should be doing? 
Services--clearly we know there could be and should be and we 
would like to see more mental health workers that are able to 
relate to families with children at this age. But short of 
that, what else should we be doing to understand this better 
and the impact that that could have on the future productivity 
and the future life of that child?
    Mr. Myers. Well, the Baby Caucus, I mean, that was really 
great. We had a number of congressmen, people there, and so 
forth, and they had professionals. They had Dr. Luster, who did 
a project focus study that is going to be coming out later this 
month. They had the wife of the The Adjutant General (TAG) from 
North Carolina, and they had a military spouse. Her husband was 
in the Guard. She was a few months pregnant. He deployed. He 
came back when the baby was six months old.
    But she tells the story, when he was gone, he would call. 
She would put the phone to the womb so he would talk to the 
baby, would put a picture of him in front of that baby. The 
only thing that disappointed her, when the husband came home, 
the baby bonded with her, and here she has been talking to the 
baby, the first word out of the baby's mouth was ``Dada.''
    So the father really liked it. And they gave us--they 
showed us some films of just dealing with babies. They had a 
parent dealing with a baby, interacting. The baby would point. 
The mother would look and so forth.
    Then they had the mother come back and sit in front of the 
baby. The baby did the same thing. The mother just looked at 
the baby, never moved. The baby pointed, nothing. All of a 
sudden, the baby starts hitting, screaming and crying.
    So it is getting the word that connection at that young age 
is so, so important. And you get--especially the Marines. You 
get these young Marines. They haven't really even bonded maybe 
with their wife. They have young children. The bond with that 
child, so I think it is a great first meeting.
    I think they are going to do studies. And the more we get 
involved with that, I mean, that is a major impact, zero to 
three, because that is when they can develop developmental 
problems and so forth. But we really appreciate it. I know you 
are a part of that caucus.
    Mrs. Davis. Yes, thank you.
    I want to just turn to another area which I have to do, I 
think, with just the changing environments that we all live in 
and the difference of so many women working and, in some cases, 
working at lower pay, perhaps, than their counterparts and, as 
military spouses often find themselves, quite mobile and unable 
to really establish themselves in areas. In the Air Force, 
about 50 percent of the women are working outside the home.
    Are we adjusting? Are we finding ways of really responding 
to that situation? Because, you know, it is not the traditional 
family unit in some ways that, you know, the military has grown 
up with, where we relied on moms at home to be able to do many 
things and be there with families, where, in fact, they have to 
work today. And it is quite different.
    How are you responding to that? What has changed? And how 
are you evaluating any of the programs that are out there that 
have to deal with the dual working families in the services, as 
well as not necessarily both of them in the service?
    Mr. Myers. Well, especially for military families that both 
work and our child development centers, people have to work 
longer. We have family daycare to put them in there. We have 
care 24 hours a day to take care of the children. But, 
remember, when someone deploys, mom or dad is home taking them 
to soccer, so forth and so on.
    Thanks to Congress, we have started these career 
advancement accounts where military spouses can come in and 
sign online to take college courses, get licensed for various 
things. You know, military spouses leave, you could be a 
schoolteacher in one state. You have to get a license in 
another state.
    So we have these accounts. And it is up to $6,000 where you 
can apply to get your license renewed, take college courses, 
get licenses, and so forth. And the majority--we have 34,000 
spouses signed up since March for this program. And most of 
them are taking courses to go into the health care area.
    But the bases themselves, the squadron has things to 
support the spouse. But this is different. You know, when I was 
in the service, one spouse stayed home. So it is really--there 
is a lot of pressure on the family. And a lot of families also 
depend on their mother and father, grandmother and grandfather 
and so forth. The services also have programs to address that.
    Mrs. Davis. Thank you. Certainly an area that we need to 
work much harder on.
    We have a vote, and--six, six votes actually, so it is 
going to be some time.
    Mr. Wilson, do you want to follow up quickly with a 
question? And if we can get to Ms. Shea-Porter, then maybe we 
will close it out, since it is going to be an hour, and we will 
have some questions for the record.
    Mr. Wilson. Thank you, Madam Chairwoman. Instead of a 
question, I just want to thank you.
    We have a circumstance, as Chairwoman Davis has identified, 
and that is that we have a higher percentage of married 
military personnel today than ever before. But I also see this 
as great opportunities for military families.
    To me, I know what it has meant for myself, for my four 
sons, for their families. It is very uplifting, their military 
service. It has created opportunities beyond imagination.
    The travel, when I visit with young people from my home 
state, whether it be in Guam or South Korea or Iraq, 
Afghanistan, Kuwait, you name it, it is just so uplifting to 
see the opportunities for young people.
    And so as we are--as giving young people and military the 
opportunity to protect our country, you are also working with 
their families. And I just--I want to thank you, as I stated 
earlier. However we can back you up by policy or any other way, 
please let us know. But it is just wonderful to know the 
opportunities for a person that wants to serve in our military.
    Thank you, and God bless each of you.
    Mrs. Davis. Thanks.
    Ms. Shea-Porter, a quick question?
    Ms. Shea-Porter. Yes, I would like to thank you, also, for 
all that you are doing.
    But, Mr. Myers, I would like to ask you in particular, do 
you have any idea how many dual deployed you are actually 
dealing with? And do you know how many children of wounded 
warriors we have who have had to move? Do you have any idea how 
many have been displaced?
    Mr. Myers. I would have to go to each of the services for 
that. But when I was with the Air Force, I dealt with the 
wounded warrior program. I can tell you, we had a military 
person assigned to that family to take care of that family. 
They had priority. They had all their childcare needs and so 
forth to make sure that they were accommodated.
    The one thing that we had pushed--and I think it is going 
to come in for legislation--in many cases, the spouse leaves 
her employment to go there, to take care of the injured person 
and access a non-medical attendant. So they are losing their 
income there. There are non-medical--it is a non-medical 
attendant.
    That person is out of the hospital--we should give them 
compensation to do that job. Taking care of children is 
extremely important. We had an airman that was burned over 80 
percent of his body. He was down at Brooks Medical Center.
    People who have burns, unfortunately, a lot of them do not 
survive. We found out this person all of a sudden was not doing 
well. His family--problem was, he was afraid his three-year-old 
child would view him as a monster. We got the right people to 
talk to the family, the child. The child saw him as his father. 
Today, 114 operations later, he is doing great and wants to 
continue to serve in the Air Force.
    Ms. Shea-Porter. I am very happy to hear you say that. We 
should compensate these families----
    Mr. Myers. Correct.
    Ms. Shea-Porter [continuing]. Because I have had a large 
number of them who have had to leave their homes to care for 
their loved ones. And I heard a particularly tragic story where 
this woman took care of somebody who now was paying her 
mortgage just out of the goodness of her heart because she was 
there with her son. And I don't think that was ever our 
intention to leave these families hanging over a financial 
cliff, as well as an emotional cliff.
    Mr. Myers. I agree.
    Ms. Shea-Porter. Thank you very much.
    I yield back.
    Mrs. Davis. Thank you. And I know Ms. Shea-Porter was on 
the trip, and we want to Afghanistan and met with many women 
there. And we did hear a number of stories, because they were 
single parents and, in some cases, having their parents or 
relatives care for the children and, in some case, even having 
difficulty getting access to medical services for that child.
    And I think we tried to deal with some of those issues. But 
it is certainly an important one.
    Yes?
    Sergeant Major Preston. If I could, I would like to just 
talk to the dual military couples, just from an Army 
perspective. And as I spend a lot of time out on the road and I 
talk to a lot of military couples, and for all of them, they--
you know, when they went to an installation as a couple, they 
have a choice. And what I advise them is always--is to go in as 
a couple and talk to the commander.
    And there are a lot of cases, military couples want to be 
deployed together, you know? You know, Tonya Gerard just left 
my office. You know, her husband is a soldier. You know, both 
of them have no children, and they want to be deployed 
together, so they are on the same deployment cycle, they can 
take leaves together, celebrate the same holidays and birthdays 
together. You know, for that couple, for them to be deployed 
together is what is best for them.
    And then you have those couples out there that have young 
children. And, of course, what they don't want to do is be 
deployed at the same time. And by talking to the commander, 
they can get in different units and organizations that are on 
different deployment cycles.
    But for the single parents that are out there, as well as 
the dual military couples, you know, they are required to have 
a family care plan so that, you know, they have got those plans 
in place to make sure that their children are taken care of in 
the event that they are deployed.
    Ms. Shea-Porter. Right. So many repeated deployments, 
though, it is falling apart. Many of the family plans have 
fallen apart because it is now the third deployment. And, you 
know, Grandma is not as happy and as willing or unable to do 
that or the brother or whomever. So it is the repeated 
deployments, I think, that has put that extra strain on them.
    Thank you.
    Mrs. Davis. I want to thank you all for being here. I 
think, because of the fact that we are not going to be back 
here for about an hour, we are going to go ahead and conclude.
    I appreciate all the programs that you have shared with us 
and the initiatives. I think one of the things that we are very 
interested in, of course, is how you evaluate them. It is not 
just based on the number of people that participate, but are 
they being institutionalized? You know, are they seen as 
something that is going to be there for them and for the 
families?
    And so the extent to which you can get that kind of 
feedback will be very important to us. And we hope that we will 
have an opportunity to meet with you again, perhaps in a 
roundtable, to continue the opportunities to do that.
    So I want to thank you again very much on behalf of the 
families that you care about so deeply. And I want to remind 
you that we are very interested in making incremental, but 
continuing improvement always in how we treat our families.
    Mr. Myers. Thank you for your support. We sincerely 
appreciate it.
    Mrs. Davis. Thank you very much.
    [Whereupon, at 2:01 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 22, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 22, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53057A.001
    
    [GRAPHIC] [TIFF OMITTED] 53057A.002
    
    [GRAPHIC] [TIFF OMITTED] 53057A.003
    
    [GRAPHIC] [TIFF OMITTED] 53057A.004
    
    [GRAPHIC] [TIFF OMITTED] 53057A.005
    
    [GRAPHIC] [TIFF OMITTED] 53057A.006
    
    [GRAPHIC] [TIFF OMITTED] 53057A.007
    
    [GRAPHIC] [TIFF OMITTED] 53057A.008
    
    [GRAPHIC] [TIFF OMITTED] 53057A.009
    
    [GRAPHIC] [TIFF OMITTED] 53057A.010
    
    [GRAPHIC] [TIFF OMITTED] 53057A.011
    
    [GRAPHIC] [TIFF OMITTED] 53057A.012
    
    [GRAPHIC] [TIFF OMITTED] 53057A.013
    
    [GRAPHIC] [TIFF OMITTED] 53057A.014
    
    [GRAPHIC] [TIFF OMITTED] 53057A.015
    
    [GRAPHIC] [TIFF OMITTED] 53057A.016
    
    [GRAPHIC] [TIFF OMITTED] 53057A.017
    
    [GRAPHIC] [TIFF OMITTED] 53057A.018
    
    [GRAPHIC] [TIFF OMITTED] 53057A.019
    
    [GRAPHIC] [TIFF OMITTED] 53057A.020
    
    [GRAPHIC] [TIFF OMITTED] 53057A.021
    
    [GRAPHIC] [TIFF OMITTED] 53057A.022
    
    [GRAPHIC] [TIFF OMITTED] 53057A.023
    
    [GRAPHIC] [TIFF OMITTED] 53057A.024
    
    [GRAPHIC] [TIFF OMITTED] 53057A.025
    
    [GRAPHIC] [TIFF OMITTED] 53057A.026
    
    [GRAPHIC] [TIFF OMITTED] 53057A.027
    
    [GRAPHIC] [TIFF OMITTED] 53057A.028
    
    [GRAPHIC] [TIFF OMITTED] 53057A.029
    
    [GRAPHIC] [TIFF OMITTED] 53057A.030
    
    [GRAPHIC] [TIFF OMITTED] 53057A.031
    
    [GRAPHIC] [TIFF OMITTED] 53057A.032
    
    [GRAPHIC] [TIFF OMITTED] 53057A.033
    
    [GRAPHIC] [TIFF OMITTED] 53057A.034
    
    [GRAPHIC] [TIFF OMITTED] 53057A.035
    
    [GRAPHIC] [TIFF OMITTED] 53057A.036
    
    [GRAPHIC] [TIFF OMITTED] 53057A.037
    
    [GRAPHIC] [TIFF OMITTED] 53057A.038
    
    [GRAPHIC] [TIFF OMITTED] 53057A.039
    
    [GRAPHIC] [TIFF OMITTED] 53057A.040
    
    [GRAPHIC] [TIFF OMITTED] 53057A.041
    
    [GRAPHIC] [TIFF OMITTED] 53057A.042
    
    [GRAPHIC] [TIFF OMITTED] 53057A.043
    
    [GRAPHIC] [TIFF OMITTED] 53057A.044
    
    [GRAPHIC] [TIFF OMITTED] 53057A.045
    
    [GRAPHIC] [TIFF OMITTED] 53057A.046
    
    [GRAPHIC] [TIFF OMITTED] 53057A.047
    
    [GRAPHIC] [TIFF OMITTED] 53057A.048
    
    [GRAPHIC] [TIFF OMITTED] 53057A.049
    
    [GRAPHIC] [TIFF OMITTED] 53057A.050
    
    [GRAPHIC] [TIFF OMITTED] 53057A.051
    
    [GRAPHIC] [TIFF OMITTED] 53057A.052
    
    [GRAPHIC] [TIFF OMITTED] 53057A.053
    
    [GRAPHIC] [TIFF OMITTED] 53057A.054
    
    [GRAPHIC] [TIFF OMITTED] 53057A.055
    
    [GRAPHIC] [TIFF OMITTED] 53057A.056
    
    [GRAPHIC] [TIFF OMITTED] 53057A.057
    
    [GRAPHIC] [TIFF OMITTED] 53057A.058
    
    [GRAPHIC] [TIFF OMITTED] 53057A.059
    
    [GRAPHIC] [TIFF OMITTED] 53057A.060
    
    [GRAPHIC] [TIFF OMITTED] 53057A.061
    
    [GRAPHIC] [TIFF OMITTED] 53057A.062
    
    [GRAPHIC] [TIFF OMITTED] 53057A.063
    
    [GRAPHIC] [TIFF OMITTED] 53057A.064
    
    [GRAPHIC] [TIFF OMITTED] 53057A.065
    
    [GRAPHIC] [TIFF OMITTED] 53057A.066
    
    [GRAPHIC] [TIFF OMITTED] 53057A.067
    
    [GRAPHIC] [TIFF OMITTED] 53057A.068
    
    [GRAPHIC] [TIFF OMITTED] 53057A.069
    
    [GRAPHIC] [TIFF OMITTED] 53057A.070
    
    [GRAPHIC] [TIFF OMITTED] 53057A.071
    
    [GRAPHIC] [TIFF OMITTED] 53057A.072
    
    [GRAPHIC] [TIFF OMITTED] 53057A.073
    
    [GRAPHIC] [TIFF OMITTED] 53057A.074
    
    [GRAPHIC] [TIFF OMITTED] 53057A.075
    
    [GRAPHIC] [TIFF OMITTED] 53057A.076
    
    [GRAPHIC] [TIFF OMITTED] 53057A.077
    
    [GRAPHIC] [TIFF OMITTED] 53057A.078
    
    [GRAPHIC] [TIFF OMITTED] 53057A.079
    
    [GRAPHIC] [TIFF OMITTED] 53057A.080
    
    [GRAPHIC] [TIFF OMITTED] 53057A.081
    
    [GRAPHIC] [TIFF OMITTED] 53057A.082
    
    [GRAPHIC] [TIFF OMITTED] 53057A.083
    
    [GRAPHIC] [TIFF OMITTED] 53057A.084
    
    [GRAPHIC] [TIFF OMITTED] 53057A.085
    
    [GRAPHIC] [TIFF OMITTED] 53057A.086
    
    [GRAPHIC] [TIFF OMITTED] 53057A.087
    
    [GRAPHIC] [TIFF OMITTED] 53057A.088
    
    [GRAPHIC] [TIFF OMITTED] 53057A.089
    
    [GRAPHIC] [TIFF OMITTED] 53057A.090
    
    [GRAPHIC] [TIFF OMITTED] 53057A.091
    
    [GRAPHIC] [TIFF OMITTED] 53057A.092
    
    [GRAPHIC] [TIFF OMITTED] 53057A.093
    
    [GRAPHIC] [TIFF OMITTED] 53057A.094
    
    [GRAPHIC] [TIFF OMITTED] 53057A.095
    
    [GRAPHIC] [TIFF OMITTED] 53057A.096
    
    [GRAPHIC] [TIFF OMITTED] 53057A.097
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 22, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53057A.098
    
    [GRAPHIC] [TIFF OMITTED] 53057A.099
    
    [GRAPHIC] [TIFF OMITTED] 53057A.100
    
    [GRAPHIC] [TIFF OMITTED] 53057A.101
    
    [GRAPHIC] [TIFF OMITTED] 53057A.102
    
    [GRAPHIC] [TIFF OMITTED] 53057A.103
    
    [GRAPHIC] [TIFF OMITTED] 53057A.104
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 22, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    Master Chief Petty Officer West. One specific area we could use 
your help and support is military spouse employment, of particular 
interest in these times of high unemployment. Efforts to address 
streamlining state-to-state certification and licensure in health 
services, education, financial services and potentially other 
occupational areas would be most beneficial as spouses frequently move 
between states with their service members. Also, opportunities to 
market military spouses to nationwide employers within Congressional 
districts could provide local solutions to corporate hiring needs while 
adding visibility to our spouse workforce.
    Current funding levels are meeting program requirements. [See page 
13.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 22, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. Can each of you explain to the committee how the 
Department, or your individual Service, evaluates family support 
programs to determine whether they are meeting the needs of the 
families? What sort of process does your Service or the Department go 
through in order to validate the effectiveness and quality of the 
programs that are being provided? How are feedback from users (i.e. 
family members/dependents) incorporated into these evaluations?
    Mr. Myers and Colonel Lyman. The Department values ongoing, 
systematic Service member and family research and evaluation, 
especially critical in these times of change, to help guide us in best 
serving families. Along with social science research on families and 
quality of life issues, we have relied on three major sources of data 
over the past several years to help us understand the needs of 
families.

    1)  Active Duty Spouse Surveys (2006 and 2008) cover a wide range 
of quality of life issues, including financial well-being, effects of 
deployments on children, spouse employment and education, and feelings 
about military life. The surveys provide the richest source of data we 
have to date about how families are faring across all the services.

    2)  Three Status of the Forces Surveys a year poll Active Duty 
service members on their overall satisfaction with the military, 
retention intentions, perceived readiness, stress, tempo, and permanent 
change of station moves. Two surveys of the Reserve Components are also 
conducted each year. These surveys allow us to track trends and changes 
in the quality of life of Service members and their families. A 
rotating set of questions covers quality of life issues, including 
financial well-being, impact of deployments on children, use of 
services and programs like Military OneSource and Morale, Welfare and 
Recreation and family support.

    3)  In May 2000, the Department funded the Military Family Research 
Institute at Purdue University to conduct basic research on quality of 
life in military families, with particular emphasis on implication for 
job satisfaction, performance and retention.

    In recognition of the increased burden placed on Service members 
and families during the Overseas Contingency Operation, the Department 
has made family readiness a high priority and has redesigned and 
boosted family support. Use of support programs has expanded as the 
programs respond to the needs of our military families. The Department 
has recently completed its first report to Congress on Military Family 
Readiness Policy and Plans, in accordance with NDAA 08 Section 581. The 
report addresses goals and measurement systems associated with family 
support programs in some detail.
    Developing outcome measures remains a work in progress due to the 
difficulties in applying meaningful measures to a military family's 
readiness. In many areas, insufficient data exists to directly link 
program benefits to outcomes for military families. For example, 
outcome data on various service programs that assist military spouses 
with employment goals has been difficult to systematically collect as 
the Services have different delivery systems and different data 
collection methods. Standardizing and collecting program outcome 
measures will be a priority of research in coming years.
    Mrs. Davis. Can each of you explain to the committee how the 
Department, or your individual Service, evaluates family support 
programs to determine whether they are meeting the needs of the 
families? What sort of process does your Service or the Department go 
through in order to validate the effectiveness and quality of the 
programs that are being provided? How are feedback from users (i.e. 
family members/dependents) incorporated into these evaluations?
    Sergeant Major Preston. In fiscal year 2004, the Family and Morale, 
Welfare and Recreation command instituted an aggressive Army Community 
Service (ACS) Accreditation program. This comprehensive evaluation 
consists of over 190 standards which establish baseline metrics for 
common levels of service delivered within our military communities. As 
part of this extensive review, ACS staff, volunteers, and customers 
participate in interviews with accreditation team members. Their input 
is used to validate findings and identify areas for improvement.
    In October 2007, the Army unveiled the Army Family Covenant as its 
commitment to provide Soldiers and their Families--Active, Guard, and 
Reserve--with a quality of life commensurate with their level of 
service and sacrifice to the Nation. The Army has aggressively improved 
a broad range of Family-oriented, quality of life programs to 
standardize services, increase accessibility to health care, improve 
Soldier and Family housing, ensure excellence in schools, youth, and 
child services, and expand education and employment opportunities for 
Families. The Army has made significant progress, but there is still 
much to do.
    As the Army Family Covenant nears its second anniversary, senior 
leaders want to know if improvements and investments in programs and 
services meet the needs of Soldiers and Families. We are conducting a 
series of town hall meetings at seven of our largest installations to 
meet with Family Readiness Group leaders and members to gather first-
hand information from those most affected by deployments about how well 
the Covenant is meeting its commitments. Results from the town halls 
will guide further program and service improvement strategies.
    We also measure the effectiveness of Army support programs by 
regularly surveying Soldiers and Families to seek opinions, assess 
satisfaction, and most importantly, monitor adaptation to the unique 
challenges of Army life. These trends help us match the capabilities of 
Army programs to the expectations of our Soldiers and Families--keeping 
the Army strong, ready, and resilient.
    Finally, the Army's customer-centric tool to communicate issues 
important to Soldiers and Families is the Army Family Action Plan 
(AFAP). The AFAP gives Soldiers and Families (Active and Reserve 
Component) a voice in shaping their standards of living by allowing 
them to identify and elevate issues and concerns to senior leaders for 
resolution. Although most issues can be resolved at local level, issues 
elevated to HQDA have resulted in 112 legislative changes and 159 
policy changes. The AFAP also gives the Army leaders an assessment of 
how well deployment and Family support is working.
    Mrs. Davis. Can each of you explain to the committee how the 
Department, or your individual Service, evaluates family support 
programs to determine whether they are meeting the needs of the 
families? What sort of process does your Service or the Department go 
through in order to validate the effectiveness and quality of the 
programs that are being provided? How are feedback from users (i.e. 
family members/dependents) incorporated into these evaluations?
    Sergeant Major Kent. The Marine Corps uses Functionality 
Assessments (FA) as the internal program review process to maximize 
program efficiencies and ensure effectiveness. FAs are conducted in 
three phases, which include the evaluation of current programs (i.e., 
As-Is analysis); Benchmarking, a comparison of best business practices; 
and ``To-Be'' development. The ``As-Is'' phase is based on the 
information provided by the installations through a data call. During 
the ``Benchmarking'' phase, a professional firm is contracted to 
conduct an objective bias free study of like processes employed by our 
Sister Services and select public and private organizations. The As-Is 
and Benchmark information provide the basic tools and resources needed 
for the third and final phase, ``To-Be''. This phase is conducted as a 
week-long Working Group comprised of installation program specific 
subject matter experts and management, as well as headquarters program 
sponsors. Common deliverables achieved through the conduct of FAs 
include:

    <bullet>  Mission validation and identification of critical 
requirements.

    <bullet>  Redefining or refining core functions and tasks to 
establish an acceptable minimal level of service Marine Corps-wide.

    <bullet>  Adoption of best practices identified in the benchmark 
study.

    <bullet>  Development of common terms and definitions to help 
ensure data integrity, and to increase opportunities for benchmarking 
across the Corps with industry.

    <bullet>  Identification of standard IT systems for data 
collection, admin, and modernization of service delivery.

    <bullet>  Development of standardized staffing models based on 
defined metrics.

    <bullet>  Development of performance measures to help determine 
program effectiveness and to quantify contribution to positive military 
outcomes (recruitment, retention, readiness).

    To-date, the Marine Corps has completed 24 FAs that encompass over 
50 programs and support functions. The Functionality Assessments are 
also supported by customer surveys that capture invaluable data from a 
representative sample of the Marine Corps' demographic. Additional 
national-level research efforts are used to capture customer feedback 
and guide Marine Corps planning and programming decisions; most notably 
the Quality of Life (QOL) in the Marine Corps Study. The Marine Corps 
administered the fourth iteration of QOL Study during the 2007 
timeframe. The Study results are instrumental in tracking and reporting 
Marine and spouse perceptions of QOL in a wide variety of life areas, 
such as housing, compensation, and healthcare to marriage, friendships, 
and children.
    Mrs. Davis. Can each of you explain to the committee how the 
Department, or your individual Service, evaluates family support 
programs to determine whether they are meeting the needs of the 
families? What sort of process does your Service or the Department go 
through in order to validate the effectiveness and quality of the 
programs that are being provided? How are feedback from users (i.e. 
family members/dependents) incorporated into these evaluations?
    Master Chief Petty Officer West. Navy family readiness programs and 
services are systematically evaluated through several mechanisms. To 
meet the DoD requirement for triennial inspection of all military 
family centers, Navy Fleet and Family Support Programs (FFSP) 
implemented in 1994 an Accreditation Program. Accreditation provides 
detailed analyses of program operation, to include identification of 
strengths and areas for improvement. It also provides an external, 
objective marker that the program meets accepted standards for 
organizational function and quality of service, and it ensures 
regulatory requirements are met in each management function and program 
area offered. The Navy Child and Youth Program (CYP) also conducts 
unannounced annual inspections by qualified Navy child development 
specialists, and partners in comprehensive accreditation programs with 
the National Association for the Education of Young Children for Child 
Development Centers and the Council on Accreditation for school-aged 
care.
    In addition to Navy accreditation processes, Sailors, family 
members, and command participants are surveyed on a recurring basis by 
installation Fleet and Family Support Program (FFSP) personnel to 
determine the effectiveness and quality of services offered. Programs 
are adapted accordingly in response to feedback about what does and 
doesn't work.
    Mrs. Davis. Can each of you explain to the committee how the 
Department, or your individual Service, evaluates family support 
programs to determine whether they are meeting the needs of the 
families? What sort of process does your Service or the Department go 
through in order to validate the effectiveness and quality of the 
programs that are being provided? How are feedback from users (i.e. 
family members/dependents) incorporated into these evaluations?
    Chief Master Sergeant Roy. The United States Air Force conducts a 
biennial Community Assessment where military members and their families 
are polled directly for their opinions about the effectiveness of 
family support and other quality of life programs. Information gathered 
from the Community Assessment is tabulated, reviewed and developed into 
a community action plan at the installation, major command and 
headquarters levels. In addition, individual installations are 
empowered to conduct focus groups and local needs assessments surveys 
to gauge their specific community needs. Once assessed, the community 
action plans are standardized for base implementation so families cross 
the Air Force are offered similar services. In addition, specialized 
programs are developed to meet unique needs. For instance, programs are 
developed based on unique needs, like an overseas assignment or a 
specific mission. To augment these forms of feedback, the Air Force 
also contracts assessment teams to independently survey the 
effectiveness of our programs.
    Mrs. Davis. The Department of Defense standard appropriated funding 
requirement for youth programs is 65 percent. Do you believe that this 
level of appropriated funding is sufficient to ensure that these 
important programs are being provided to families? Should the 
Department and Congress consider increasing the appropriated funding 
support to higher level for family and youth programs, especially 
during these difficult times for military families?
    Mr. Myers and Colonel Lyman. The Department is fully committed to 
providing a high quality of life for military members serving our 
Nation and their families. These programs are lifelines of support for 
families, especially children and youth, who are stationed around the 
globe. Our commitment includes providing strong youth programs and 
services through adequate funding, strict oversight, continual staff 
development and strong family involvement.
    Current minimal funding for appropriated funds (APF) support for 
family and youth programs is 65%, however the Services are spending 
well over that amount. For example, in 2008 the Army spent 93.4%, Navy 
74%, Air Force 70%, and Marine Corps 88% of APF.
    The effects of eight years of war on military children, youth and 
their families have taken its toll. Recent studies have found that a 
significant number, (approximately 32%), of military youth, whose 
parents are deployed during wartime, may be at ``high risk'' for 
psychosocial problems which can include learning disorders; 
developmental disabilities; and emotional, behavioral and psychosomatic 
problems (msnbc.com and NBC News, updated 6:00 p.m. ET, Thurs., Aug. 
13, 2009). Furthermore, research also shows a direct correlation 
between the levels of support receive and a lowering of risk levels.
    DoD appreciates the focus and attention Congress has placed on 
military youth programs. We continue our commitment to meet these 
expectations and share the passion for improving services to support 
military children, youth, and families.
    Mrs. Davis. The Department of Defense standard appropriated funding 
requirement for youth programs is 65 percent. Do you believe that this 
level of appropriated funding is sufficient to ensure that these 
important programs are being provided to families? Should the 
Department and Congress consider increasing the appropriated funding 
support to higher level for family and youth programs, especially 
during these difficult times for military families?
    Sergeant Major Preston. The Army continues to support the standard 
funding level of 65 percent Appropriated Funding (APF) which is 
sufficient to ensure the delivery of the Youth Programs. As part of the 
Army Family Covenant, the Army increased APF support in fiscal year 
2009 for Youth Programs to mitigate the stressful effects placed on our 
Families due to eight years of persistent conflict. This increase has 
allowed the Army to expand youth programming to include outreach 
services for geographically dispersed youth, to offset fee discounts 
for youth sports and instructional programs for children of deployed 
Soldiers, to provide transportation support to allow youth to 
participate in after school activities, and to offer extended operating 
hours for youth centers that mirror the extended duty day in support of 
parental mission requirements.
    Mrs. Davis. The Department of Defense standard appropriated funding 
requirement for youth programs is 65 percent. Do you believe that this 
level of appropriated funding is sufficient to ensure that these 
important programs are being provided to families? Should the 
Department and Congress consider increasing the appropriated funding 
support to higher level for family and youth programs, especially 
during these difficult times for military families?
    Sergeant Major Kent. The Marine Corps appreciates the on-going 
support of Congress to address funding requirements for important 
family support programs. Although DoD policy establishes 65% as the 
minimum standard for funding MWR Category B programs (includes child 
and youth programs); the policy does allow 100% APF support for all 
authorized expenditures. For FY08, the Marine Corps MWR Category B 
funding was reported at 83%, which was an approximate $41M increase in 
total APF spending from FY07. This included baseline and supplemental 
funding expenditures. Beginning in FY10, CMC has directed a $110M 
increase to the family support baseline budget, which will help 
solidify efforts to transition programs to a wartime footing.
    Mrs. Davis. The Department of Defense standard appropriated funding 
requirement for youth programs is 65 percent. Do you believe that this 
level of appropriated funding is sufficient to ensure that these 
important programs are being provided to families? Should the 
Department and Congress consider increasing the appropriated funding 
support to higher level for family and youth programs, especially 
during these difficult times for military families?
    Master Chief Petty Officer West. Since youth programs have a 
limited ability to generate revenue from user fees and programs are 
often provided free of charge to encourage participation, the minimum 
funding requirement of 65 percent is appropriate. The remaining 35 
percent is covered by non-appropriated programs. This percentage split 
does not limit the amount of appropriated dollars Congress can 
authorize for family and youth programs. Current funding levels are 
meeting program requirements.
    Mrs. Davis. The Department of Defense standard appropriated funding 
requirement for youth programs is 65 percent. Do you believe that this 
level of appropriated funding is sufficient to ensure that these 
important programs are being provided to families? Should the 
Department and Congress consider increasing the appropriated funding 
support to higher level for family and youth programs, especially 
during these difficult times for military families?
    Chief Master Sergeant Roy. The Air Force operates over 82 Child and 
Youth programs world-wide and serves approximately 68,000 military 
dependents under the age of 18. Activities focus on five core program 
areas: Character and Leadership Development, the Arts, Youth Sports, 
Fitness and Recreation, Health and Life Skills, and Education and 
Career Development. The School Age program includes before and after 
school care, care on school holidays and during the summer months, 
specialty and summer camps, and part-day preschools for parents of 
children aged 5-12 years. The Air Force Youth Camping Program offers a 
wide variety of summer camp opportunities in both residential and 
specialty camps and serves over 20,000 children of military members. 
Mission Youth Outreach is a partnership between the Air Force and the 
Boys & Girls Club of America that provides one-year free membership for 
youth to attend any Boys & Girls Club in their community.
    The 65% funding requirement for Child and Youth Programs sustains 
basic program operating costs and allows for partial replacement of 
equipment. Increased funding would allow for initiatives directly 
targeting children of deployed members, augmentation of existing 
programs with specialized positions that help families deal with 
deployment-specific issues and family relocations, and enhance existing 
relationships with the Air Force partners like the Boys & Girls Clubs 
of America and 4-H.
    The Air Force is committed to serving Airmen and their families by 
reaching out and assisting all members of the Total Force through 
robust child, youth and family programs, wherever the member resides.
    Mrs. Davis. One of the constant challenges for many family support 
programs is the lack of staff and constant turnover. What can be done 
to address this issue?
    Mr. Myers and Colonel Lyman. Staff turnover is an on-going issue in 
family support programs especially overseas where many staff are 
military spouses who relocate every few years when their sponsor is 
reassigned. Turnover is an expected issue and one that is weighed 
against the benefit of military spouses' career opportunities, 
experience, and ability to adapt to changing situations. Many military 
spouses who begin their federal careers overseas go on to similar jobs 
in CONUS locations. The Services report stateside family support 
programs do not show higher levels of staff turnover than other 
programs. Turnover is expected and steps are taken to employ relocating 
staff at the next duty station, thereby reducing the effects of staff 
turnover.
    The military Services have taken steps in recent years to improve 
recruitment and retention of support staff within their family programs 
and lessen the negative impact of turnover by increasing recruitment 
efforts, offering incentives, and reorganizing programs. Several of the 
Services have changed the manner in which they provide family support 
and have done away with the traditional ``stove-piped'' service 
delivery system where each staff member specializes in one program 
area. In the new delivery system, staff are cross-trained to provide 
services in several program areas. This concept works to lessen the 
impact of staff turnover by ensuring continuity and program knowledge 
and experience is not lost when a person leaves.
    Another effort to recruit and retain quality staff is in the area 
of payment and incentives. For child and youth programs, pay is fixed 
across the Department with increases based on successful completion of 
training and adequate performance. Child and youth programs typically 
offer educational incentives such as payments for college courses.
    Additionally, the Department has partnered with the 106 
institutions which make up the public Land Grant University system to 
provide training and professional development for Military Community 
and Family Policy and family programs staff. One such effort is the 
Capitol Region Child Care Laboratory School--this model professional 
development program provides hands-on training in a military child or 
youth program setting linked to a university laboratory school and its 
faculty expertise. This Lab School will provide services for families 
while serving as a learning laboratory for students and professionals 
to enhance their training in child development, family support, and 
administrative management. The program will assist program efforts in 
enhancing professional development, as well as improve the overall 
quality and functioning of staff.
    Another program that will address recruitment and retention of 
military family program staff is the 4-H Military Internship Program, 
collaboration between the Department, the United States Department of 
Agriculture, and the Land Grant University system. This Internship 
Program will recruit upper level undergraduate and graduate students to 
work within DoD programs such as child development centers, youth 
programs, and other family support programs.
    Mrs. Davis. One of the constant challenges for many family support 
programs is the lack of staff and constant turnover. What can be done 
to address this issue?
    Sergeant Major Preston. The Army Family Covenant in 2007 provided 
funding for an additional 477 positions for our 83 Army Community 
Service (ACS) centers worldwide. Until these positions are authorized 
in fiscal year (FY) 2010, the Army is using a bridging strategy of 
contractors and over hires to deliver the required services. These 
positions will bring ACS centers to the standards established by the 
1999 US Army Manpower and Analysis Agency staffing requirements. This 
will increase our base staffing in ACS centers by approximately one 
third (from 1,071 to 1,414). We are currently reviewing additional 
manpower requirements for FY12 to address current new missions 
acquired, without additional resources, since the 1999 manpower 
surveys.
    Many of our Family Program positions are filled with military 
spouses. As Soldiers move, so do their spouses. While this turnover is 
challenging, we believe that the opportunities for professional 
positions in portable careers within the military community for our 
Families is a huge quality of life advantage.
    Mrs. Davis. One of the constant challenges for many family support 
programs is the lack of staff and constant turnover. What can be done 
to address this issue?
    Sergeant Major Kent. In 2007, the CMC took deliberate action to 
establish civilian family readiness officers and family support 
trainers. This action was necessary as much of the work prior to 2008 
was performed by volunteers. Beyond these program areas, we have 
significantly increased our Exceptional Family Member Program and 
established a School Liaison Program. Our strategy for retention is to 
ensure competitive salaries appropriate to the position. However, it 
must be acknowledged that military spouses predominantly fill these 
positions at present. Therefore, we expect turnover to be high. While 
regrettable, the talent and expertise of military spouses allows these 
individuals to quickly acclimate to employment on another installation 
reducing effects of turnover.
    Our remaining challenge has been associated with family support 
programs that have been contracted out over time. Recent changes in OSD 
policy and Congressional direction for in-sourcing of contracts have 
presented an opportunity to, upon appropriate business case analysis, 
discontinue contracts at appropriate timeframes and establish 
nonappropriated fund personnel who are government personnel and 
salaries reimbursed by appropriated funds. We expect this action will 
have two significant benefits: (1) stabilize our staffing and resolve 
long-term vacancies and (2) return ownership and flexibility directly 
to the program and evolve services to meet our mission. At present, 
flexibility is greatly restricted due to contract terms.
    Mrs. Davis. One of the constant challenges for many family support 
programs is the lack of staff and constant turnover. What can be done 
to address this issue?
    Master Chief Petty Officer West. There is no known data that shows 
family support programs have a level of turnover that is higher than 
any other Navy program. We take pride in hiring military spouses and 
therefore it would be reasonable to assume that this practice would 
result in a higher level of turnover than non-Navy programs. However, 
losing a trained spouse from one location due to transfer often means 
the ability to hire a fully trained staff member at the next duty 
location. With respect to recruitment, we are proactive in identifying 
positions that can be virtual, preventing a break in service for the 
spouse when the active duty member is transferred. In addition, we 
encourage alternate work schedules where appropriate as a workforce 
incentive; maximize the family programs network in recruitment; and 
utilize Facebook technology as a recruitment tool.
    Mrs. Davis. One of the constant challenges for many family support 
programs is the lack of staff and constant turnover. What can be done 
to address this issue?
    Chief Master Sergeant Roy. Airman and Family Readiness Centers 
(A&FRCs) across the Air Force see approximately 15 percent turnover 
annually. A&FRCs combat this turnover percentage by staffing their 
centers with Community Readiness Consultants (CRCs). CRCs are trained 
to provide customer service in any program area under the A&FRC 
umbrella. The CRC concept abandons the traditional stove-piped service 
delivery system and allows each staff member to provide full spectrum 
support.
    Mrs. Davis. Often when I meet with the Navy and Marine Corps 
ombudsmen in my district, one of the common concerns that I hear is the 
lack of access to funds that could be used to help reduce the financial 
burden on our volunteers or provide recognition for their service. Have 
the Services thought about providing appropriated funds to family 
support volunteers to help defray their costs? What would be the issues 
that need to be overcome to do so?
    Mr. Myers and Colonel Lyman. Recognizing the vital role family 
readiness volunteers play in supporting Service members and their 
families is important. Volunteerism is essential to implementing 
military family support programs. Command-sponsored support groups run 
by volunteers range from informal to formal organizations of spouses 
and Service members' parents or significant others and meet social 
needs for camaraderie, companionship, information, and serve as a forum 
to relieve loneliness and stress during deployment or periods of family 
separation. They also play a vital role in communication between 
commanders and families.
    Volunteer burnout and out-of-pocket expenses have been reported 
throughout military programs worldwide. While a robust volunteer 
network is crucial to support military families during times of 
deployment, we also acknowledge that more paid staff to support 
volunteers is needed. The Department is aware of the stress many of 
these dedicated volunteers are dealing with on a daily basis. The 
military components continue to look for ways to increase support to 
volunteers and to provide them with additional tools and resources. The 
Army has increased spending to over $45 million to hire 1,000 full-time 
staff to support the Family Readiness Program. The Marine Corps is 
spending $30 million over two years to shift from volunteers to paid 
staff. The Department applauds the Services' efforts to assist 
volunteers by providing family readiness support to units down to the 
battalion level to help relieve some of the overworked volunteers. We 
understand more is needed.
    While military commanders may not compensate volunteers for the 
services they provide, they may reimburse them from appropriated or 
non-appropriated funds for incidental expenses incurred in providing 
services, including but not limited to long distance telephone calls, 
commuting, and childcare.
    Mrs. Davis. Often when I meet with the Navy and Marine Corps 
ombudsmen in my district, one of the common concerns that I hear is the 
lack of access to funds that could be used to help reduce the financial 
burden on our volunteers or provide recognition for their service. Have 
the Services thought about providing appropriated funds to family 
support volunteers to help defray their costs? What would be the issues 
that need to be overcome to do so?
    Sergeant Major Preston. The Army has made provisions to defray the 
costs incurred by volunteers in the conduct of their official duties. 
Army Regulations 608-1, Army Community Service Center and 215-1, 
Military Morale, Welfare, and Recreation Programs and Nonappropriated 
Fund Instrumentalities outline the use of appropriated and non-
appropriated fund support for Family Readiness Group volunteers. These 
regulations provide detailed guidance for commanders and volunteers on 
how to obtain reimbursement for childcare expenses, mileage, telephone 
calls, and other appropriate expenses. Both regulations also address 
the use of funds to support awards and recognition ceremonies.
    Since 2007, the Army has added over 1,000 paid Family Readiness 
Support Assistants (FRSAs) who, under the supervision of unit 
commanders, work solely to ease the burden on volunteer Family 
Readiness Group (FRG) leaders. FRSAs do not replace volunteer FRG 
leaders, but rather provide administrative and logistical assistance, 
allowing volunteer FRG leaders to concentrate on assisting Families. 
FRSAs may also liaise between the FRG leader and the rear detachment 
commander.
    Mrs. Davis. Often when I meet with the Navy and Marine Corps 
ombudsmen in my district, one of the common concerns that I hear is the 
lack of access to funds that could be used to help reduce the financial 
burden on our volunteers or provide recognition for their service. Have 
the Services thought about providing appropriated funds to family 
support volunteers to help defray their costs? What would be the issues 
that need to be overcome to do so?
    Sergeant Major Kent. Reimbursement of volunteers for incidental 
expenses in support of their unit's personal and family readiness 
program or in support of training programs provided by Marine Corps 
Family Team Building has been a top priority for Marine leaders prior 
to the development and implementation of the new Unit, Personal and 
Family Readiness Program. Such incidental expenses include mileage, 
telephone calls, tolls, parking, and childcare. These types of expenses 
are authorized for reimbursement using either appropriated funds or 
non-appropriated funds. Funding for volunteer reimbursement is subject 
to reasonable limitations established by Commanders as there may be 
competing requirements to consider. Currently, Marine Corps units 
located aboard Marine Corps installations are only authorized non-
appropriated funds to support the personal and family readiness 
program, which includes volunteer reimbursements. Non-appropriated 
funding is the more available, flexible and usable type of funding for 
personal and family readiness events.
    Mrs. Davis. Often when I meet with the Navy and Marine Corps 
ombudsmen in my district, one of the common concerns that I hear is the 
lack of access to funds that could be used to help reduce the financial 
burden on our volunteers or provide recognition for their service. Have 
the Services thought about providing appropriated funds to family 
support volunteers to help defray their costs? What would be the issues 
that need to be overcome to do so?
    Master Chief Petty Officer West. Although Ombudsmen do not expect a 
salary, the Navy recognizes that serving as a command volunteer should 
not result in financial hardship and that Ombudsmen do occasionally 
incur expenses during the performance of their duties. Many of the 
expenses are authorized for reimbursement by OPNAVINST 1750.1F, 5.d(8), 
and such reimbursement is the responsibility of the commanding officer. 
Ombudsmen with children, ages 0-12, performing official duties are 
authorized child care through the Navy Child and Youth Programs at no 
cost.
    Commanding officers must provide appropriate funding resource 
support to the Ombudsman Program. The funding line item to support the 
Ombudsman Program may use appropriated funds (APF) or non-appropriated 
funds (NAF). Based on a survey of 1,389 Ombudsmen in October 2007, 80% 
responded that they have no difficulty receiving reimbursements.
    Recognition of Ombudsmen is vitally important, and commands are 
encouraged to show their appreciation in a variety of ways using non-
appropriated funds. While Ombudsman Appreciation Day is 14 September, 
through ongoing interaction, commands regularly show Ombudsmen their 
service is valued through appreciation dinners, ombudsman plaques and 
awards.
    Mrs. Davis. Often when I meet with the Navy and Marine Corps 
ombudsmen in my district, one of the common concerns that I hear is the 
lack of access to funds that could be used to help reduce the financial 
burden on our volunteers or provide recognition for their service. Have 
the Services thought about providing appropriated funds to family 
support volunteers to help defray their costs? What would be the issues 
that need to be overcome to do so?
    Chief Master Sergeant Roy. Appropriated funds must be used for 
mission essential tasks. Appropriate funds are only available to help 
recognize volunteers who help carry out official Air Force functions. 
Nonappropriated funds and private organization funding is typically 
used to provide funding to recognize the contribution of volunteers.
    Mrs. Davis. When we think of military families, most think of the 
spouse and children. However, not all service members are married, but 
yet their families--mothers, fathers, siblings may need similar support 
services when a single service member is deployed. What is the 
Department and the Services doing to support the families of single 
service members?
    Mr. Myers and Colonel Lyman. The Department provides information 
and referral services and resources to parents of service members 
through Military OneSource 24/7, 365 days a year.
    The Military Services provide information and referral and 
resources to family members including parents and siblings before, 
during and after return of a member from deployment. Information about 
the resources is provided during pre-deployment outreach and workshops; 
through command newsletters and e-messaging; through outreach from rear 
detachment staff and/or family programs during deployment; and during 
reintegration and post-deployment workshops and training. Additionally, 
the Services invite parents to participate in Family Readiness Groups 
during deployment.
    Mrs. Davis. When we think of military families, most think of the 
spouse and children. However, not all service members are married, but 
yet their families--mothers, fathers, siblings may need similar support 
services when a single service member is deployed. What is the 
Department and the Services doing to support the families of single 
service members?
    Sergeant Major Preston. The Army uses many service delivery 
mechanisms to inform all Soldiers (single and married) and immediate or 
extended Families on available services and programs. Army OneSource 
(www.armyonesource.com) is a focal point for information delivery, 
which provides accurate, up-to-date information on a variety of topics 
for Active Duty, Guard, and Reserve Soldiers and Family members. In 
fiscal year 2008, Army OneSource had more than 20 million hits per 
month. The Family Program Newsletter, a monthly update of topics 
related to Family readiness, is e-mailed to more than 75,000 
subscribers who sign up at Army OneSource.
    Family Readiness Groups (FRGs) provide a critical link between 
extended Families, Soldiers, and units before, during, and after 
deployments. FRG membership is open to Soldiers, civilian employees, 
and immediate and extended Family members (parents, siblings, fiancees, 
and other loved ones designated by the Soldier). Virtual FRGs provide 
all the functionality of an FRG in an ad-hoc, online setting to meet 
the needs of geographically dispersed units and Families. The eArmy 
Family Messaging System is another tool for commanders to deliver 
messages through multiple devices such as phone, cell, text, PDA, and 
fax.
    Mrs. Davis. When we think of military families, most think of the 
spouse and children. However, not all service members are married, but 
yet their families--mothers, fathers, siblings may need similar support 
services when a single service member is deployed. What is the 
Department and the Services doing to support the families of single 
service members?
    Sergeant Major Kent. Today, the Marine Corps Family is defined as 
more than just the traditional nuclear family definition of parents and 
children. Marines, their spouses and children, by default, should 
always be the primary focus of family readiness support. However, we 
readily acknowledge the role extended family members may play in 
fostering personal and family readiness, for both single and married 
Marines. Our Unit, Personal and Family Readiness Program was developed 
to be inclusive of this valuable support resource. Single Marines and 
supported sister-service members may now designate up to four contacts 
to receive official communication from their command and have access to 
the information and referral support provided by the unit Family 
Readiness Officer and the enhanced training opportunities. 
Additionally, we are in the research and development phase for the 
design of our organizational communication system, which will 
facilitate all-way communication for Marines, spouses and designated/
extended family contacts and provide a portal for authorized users to 
access information on services available across a spectrum of programs. 
This endeavor is the capstone to implementing the Commandant of the 
Marine Corps' Guidance to ``Improve the quality of life for our Marines 
and our families,'' with the specific goal of ``Ensuring our Family and 
Single Marine Programs have fully transitioned to a wartime footing in 
order to fulfill the promises made to our families.''
    Mrs. Davis. When we think of military families, most think of the 
spouse and children. However, not all service members are married, but 
yet their families--mothers, fathers, siblings may need similar support 
services when a single service member is deployed. What is the 
Department and the Services doing to support the families of single 
service members?
    Master Chief Petty Officer West. All Sailors, to include single 
Sailors, have access to services provided at Fleet and Family Support 
Centers, to include deployment support, relocation assistance, clinical 
counseling, sexual assault and domestic abuse victim advocacy, personal 
financial management, life skills education, and transition assistance.
    We engage a single Sailor's preferred point of contact during an IA 
assignment or the designated caregivers of seriously wounded, ill and 
injured single Sailors. We otherwise provide information to family 
members of single Sailors through our family support website, command 
Ombudsman program, and recently launched a Fleet and Family Support 
Programs Facebook page. Military OneSource and Military Homefront 
websites, as well as the Joint Family Support and Assistance Program, 
provide resources and information which are beneficial for family 
members of single service members.
    Depending on geographic location, extended family members are 
invited to attend family day events, deployment briefings, family 
readiness group events, and Returning Warrior Workshops, which are 
signature events of the Navy Reserve Reintegration (Yellow Ribbon) 
program.
    Mrs. Davis. When we think of military families, most think of the 
spouse and children. However, not all service members are married, but 
yet their families--mothers, fathers, siblings may need similar support 
services when a single service member is deployed. What is the 
Department and the Services doing to support the families of single 
service members?
    Chief Master Sergeant Roy. Since Operation Desert Storm, Hearts 
Apart (HA) is a vital element of deployment readiness activities hosted 
by the Airman & Family Readiness Centers (A&FRC) to help families stay 
connected to Airmen. Hearts Apart activities focus on deployment 
support for Airmen & families during pre-deployment and sustainment. HA 
also includes support to families separated due to extended TDY lasting 
30 days or more and to families whose Airman is on a remote assignment. 
A&FRC offer a baseline of Hearts Apart services to aid families in 
feeling connected to the Air Force community. Morale Calls through base 
operators allow Airmen and their family members to connect through the 
Defense Switching Network (DSN) at a rate of 1 call per week for 15 
minutes. Discovery Resource Centers allow computer access with webcams 
for family members to uplink with Airmen at deployed locations and some 
have video teleconferencing capabilities. Air Force Aid Society (AFAS) 
Community Enhancement Programs such as Give Parents a Break and Car 
Care Because we Care provide free child care and car safety checks.
    One hundred percent (100%) of Airmen are required to receive a pre-
deployment briefing from the A&FRC at which time they identify family 
members left behind. Although some services are limited to family 
members enrolled in the Defense Enrollment Eligibility Reporting 
System, support may be extended simply through a newsletter, email, or 
phone call to parents, siblings, or significant others. At the 
briefing, all Airmen are asked by A&FRC personnel to identify family 
members or significant others that may require assistance or 
information during a deployment. A&FRC personnel distribute information 
and maintain monthly contact with family members or significant others 
in multiple ways. Outreach focuses on face-to face meetings at 
community events for family members of deployed Airmen.
    The Air Force is currently working on Caring for People initiatives 
that examine closely and enhance the support we specifically provide to 
single Airmen.
    Mrs. Davis. Mr. Myer, given the recent survey data from DMDC on the 
impact of deployments on children, is the Department of Defense 
undertaking any longitudinal studies on this issue that may be able to 
shed more light on what is needed to assist families under the stress 
of constant and extended separations due to the continued combat 
deployment of troops?
    Mr. Myers and Colonel Lyman. The Department of Defense is launching 
a longitudinal component of the DMDC survey program in fiscal year 
2010. A representative sample of Active Duty members and spouses will 
be followed over the next two years to better understand the stresses 
of deployments on families as well as the extent of existing support 
systems.
    Mrs. Davis. Mr. Myer, the recent study on combat related deployment 
on school age children conducted by the National Institute for Child 
and Human Development looked at the impact of deployments on children 
from ages 6 through 12. However, a recent DMDC survey found that 
children most impacted were between the ages of 0 to 5 years old. Are 
there any additional studies being conducted that would look at this 
specific population of children and what sort of prevention and 
treatment models may be needed to support these children and their 
caretakers?
    Mr. Myers and Colonel Lyman. In the 2008 DMDC Active Duty Spouse 
Survey, spouses did indicate their child most impacted by deployment 
was 0-5 (53%). While important to note, it is driven by the 
demographics of the sample, 59% of whom had children in that age group. 
The average age of the most impacted child as reported by the parent 
was 6.1 years old.
    Boston University School of Social Work and the Boston Medical 
Center have received a four year grant from the Department of Defense 
(Army) to develop a family-based program to support the healthy 
reintegration of soldiers into their families. Designed for families 
with children ages birth to five years old, the goal of this home-based 
family program is to mitigate the impact of combat and separation-
related stress upon the parent-child and family relationships.
    Through Coming Together Around Military Families (CTAMF), ZERO TO 
THREE has provided training, consultation, and materials to 12 military 
installations and 2 medical centers around the nation; and provided 
support to several Joint Family Support Assistance Programs (JFSAP) as 
a means of addressing the unique needs of Guard and Reserve families. 
ZERO TO THREE contracted with the Military Family Research Institute at 
Purdue University to conduct a formal evaluation of the CTAMF trainings 
and anticipate having a final report in October.
    Resources, prevention and treatment programs currently being 
implemented are:

    <bullet>  Child and Youth Behavioral Military Family Life 
Consultants (CYB-MFLC) provide support to children, parents, faculty, 
or staff at Child Development Centers, schools, and camps.

        -  Support 151 child and youth programs on military 
        installations.

        -  During the 2009-2010 school year, 86 CYB-MFLCs will support 
        97 schools world-wide.

        -  30 CYB-MFLCs support Joint Family Support Programs in 30 
        states to serve families who are geographically isolated from 
        installation services.

        -  During the summer of 2009 more than 400 MFLCs are supporting 
        more than 300 summer camps with approximately 24,000 children.

    <bullet>  Military OneSource provides face-to-face, electronic, and 
telephonic counseling on parenting/child issues and provides a myriad 
of other support and services to families.

    <bullet>  Coming Together Around Military Families is a Department 
partnership with ZERO TO THREE to help build awareness of the impact of 
separation, injury, and loss on families with babies and toddlers. This 
program provides direct in-service training to DoD helping 
professionals in the fields of mental health, child development, family 
support, and pediatrics.

    <bullet>  www.militarystudent.org is a website that offers an on-
line course for educators and counselors to build their awareness of 
the impact of deployment and the military lifestyle to build systems of 
support.

    <bullet>  Military Child Education Coalition provides Living in the 
New Normal courses for stakeholders interested in supporting military 
children as well as National Guard and Reserves Institutes.

    <bullet>  Parents as Teachers is an internationally renown home 
visitation program deployed to high opstempo locations to support 
school readiness, identify special needs, and support optimum parenting 
skills.

    <bullet>  Project FOCUS (Families OverComing Under Stress) is a 
family-centered resiliency training program based on evidenced-based 
interventions that enhance understanding, psychological health and 
developmental outcomes for highly stressed children and families. FOCUS 
has been adapted for military families facing multiple deployments, 
combat operational stress and physical injuries in a family member. In 
March of 2008, the Navy Bureau of Medicine and Surgery (BUMED) built a 
partnership with the UCLA Semel Institute of Neuroscience and Human 
Behavior to implement the FOCUS Project for United States Navy and 
Marine Corps families in order to address the impact of multiple 
deployments, combat stress, and high operational tempo on children and 
families. Through this unique collaboration, FOCUS services augment 
existing Navy Medicine and Navy and Marine Corps community support 
programs such as the Fleet and Family Centers and the Marine Corps 
Community Services in order to provide a comprehensive system of care 
that supports family readiness and wellness.

    <bullet>  Military Families Learning Community: The major goals of 
the Military Families Learning Community are: 1) Provide education and 
training to National Child Traumatic Stress Network (NCTSN) category II 
and III sites on a variety of military-related issues; 2) Provide 
consultation and technical assistance to NCTSN Category II and III 
sites to facilitate NCTSN sites' ability to provide trauma-informed, 
evidenced-based interventions to military families and children; 3) 
Identify key national and regional partnerships with NCTSN Category II 
and III sites, TRICARE, military treatment facilities, medical 
providers, and other federal, state and local partners, in order to 
provide a continuum and excellence of services for military families 
and children; 4) Extend knowledge and evidence based practices from 
NCTSN to larger community of providers to military families and 
children.

    Mrs. Davis. Colonel Lyman, how are Reserve and Guard families being 
informed of programs and services available to them, particularly 
opportunities to participate in Yellow Ribbon Reintegration Programs. 
Are families being provided the resources to be able to travel to these 
events?
    Mr. Myers and Colonel Lyman. The Yellow Ribbon Program provides 
support across the entire deployment cycle and the success of Yellow 
Ribbon Programs and Family Readiness Programs are essential for unit 
readiness. Commanders at the deploying-unit level are responsible to 
communicate these programs throughout their organizations.
    The following resources help commanders communicate these programs:

    1)  Well-developed family programs that include trained volunteers 
and formal and informal communication networks (e.g.: the Navy 
Reserve's Fleet and Family Support Programs or the National Guard 
Family Program)

    2)  Unit and family program newsletters sent to members and their 
families

    3)  The Yellow Ribbon Program web-based event scheduling tool 
(www.dodyrrp.org) that allows Service members and their families to 
locate Yellow Ribbon events close to their homes. The scheduling tool 
opened on July 1, 2009.

    4)  Web-based tools that are advertised by the host Services and 
organizations that give families direct access to critical resources. 
For example:

         <bullet>  Military OneSource at www.militaryonesource.com

         <bullet>  DoD Military Community and Family Policy at 
        www.militaryhomefront.com

         <bullet>  National Guard Bureau at 
        www.jointservicessupport.org/fp/

         <bullet>  Organizations such as National Military Family 
        Association at www.nmfa.org

    Regarding family travel to Yellow Ribbon events, DoD policy 
requires the Services to budget for pay, allowances, and travel for 
members along with travel and allowances for an established number of 
family members (each service establishes its family attendance 
guidelines).
    Mrs. Davis. Colonel Lyman, studies have shown that the deployments 
impact our military children, given the unique challenges faced by 
Guard and Reserve families, what are the Department and the individual 
reserve components doing to ensure that families have access to the 
services and programs that they need particularly mental health 
resources?
    Mr. Myers and Colonel Lyman. The well-being of Guard and Reserve 
children is of great concern to the Department of Defense and numerous 
military and community resources are in place for support. Every 
Reserve component has established child and youth programs to ensure 
support services reach military families. Furthermore, with Guard and 
Reserve members living in over 4000 communities nationwide, military 
and community resources work in combination to serve the health and 
mental health needs of military children.
    During and following deployment, Reserve component families have:

    <bullet>  Full access to TRICARE resources (and civilian employer 
insurance where applicable)

    <bullet>  Military OneSource available 24/7 for local access to 
masters-level, licensed therapists for up to 12 sessions per issue

    <bullet>  Military Family Life Consultants (masters-level 
counselors) available in every state

    In addition, a variety of non-profit programs exist to provide 
support to RC families who are geographically dispersed. These efforts 
include, among others:

    <bullet>  Operation Military Kids (OMK) an organization that 
supports the children and youth impacted by deployment. OMK has reached 
88,000 military youth and provided information to 21,009 community 
members across the United States

    <bullet>  Military Child Education Coalition (MCEC) is a non-
profit, world-wide organization focused on military children affected 
by mobility, family separation, and transition ensuring they receive 
quality educational opportunities

    <bullet>  Children's Camps and Educational Opportunities have been 
established to reach out specifically to military children and youth. 
For example, National Military Family Association (NMFA) established 
and supports Operation Purple Camp which in 2009 will host nearly 90 
weeks of camp in 62 locations in 37 states and territories. Purple 
camps have hosted over 20,000 kids since they started in 1994.

    Mrs. Davis. Sergeant Major Preston, one of the issues that have 
been raised is the Army provides 16 hours of respite care to families 
of deployed soldiers, but the problem is that the child care facilities 
are fully subscribed and are unable to provide the hours to families. 
Can you tell us is this specific to a handful of bases or a system-wide 
problem?
    Sergeant Major Preston. The Army has found no indication of a 
system-wide problem in offering 16 hours of respite child care (per 
child, per month) to the families of deployed Soldiers. While respite 
care in a Child Development Center (CDC) setting may not always be 
available ``on demand'' at every garrison, the Army has a wide variety 
of delivery methods beyond the CDC setting that allow the garrisons to 
meet the needs of most parents that wish to use it.
    Deployment respite care has been a key benefit to mitigate the 
stress felt by Soldiers and Families as a result of frequent 
deployment. Deployment respite care is provided through multiple 
delivery options, in addition to child care centers, to include Family 
child care homes, on-site child care sessions, summer camps for school-
aged children, child development homes, and trained babysitters. Since 
February 2008, over 1.1 million respite care hours have been provided 
across Army Garrisons making this service one of our best received 
offerings system-wide.
    Mrs. Davis. Sergeant Major Kent, as you know, the Marine Corps and 
TriWest, the TRICARE contractor for the western region, have put 
together a pilot program to address the needs of autistic children at 
Camp Pendleton. Do you know the current status of this pilot program 
and are there any outcomes that may be useful as we seek to address 
support services for autistic children of military families?
    Sergeant Major Kent. The ``Enhanced Access to Autism Services 
Demonstration'' project, which took effect in March 2008, is being 
administered through TRICARE and allows eligible beneficiaries to have 
access to a greater range of existing evidence-based Educational 
Interventions for Autism Spectrum Disorders (EIA) services, through an 
expanded network of educational intervention providers. Based on an 
informal survey, families at Camp Pendleton are aware of TRICARE's 
Demonstration project and are accessing its services. Nevertheless, we 
believe that even with the enhanced plan, current TRICARE coverage is 
insufficient for complete ASD medical services, particularly Applied 
Behavioral Analysis (ABA).
    Mrs. Davis. Master Chief Petty Officer West, the Navy has a 
significant population of Individual Augmentees deployed. What efforts 
has the Navy taken to provide the necessary support to their families 
that are no longer part of a ship or unit or may be geographically 
separated from a base?
    Master Chief Petty Officer West. The Individual Deployment Support 
Program begins 60 days prior to deployment and continues 180 days post 
deployment. An Individual Deployment Support Specialist (IDSS) from the 
Fleet and Family Support Center (FFSC) initiates contact with the IA 
Sailors and their family within 10 business days of receipt of a new 
file. Recurring contact, assessment and support, at an interval 
requested by the family, is provided by an IDSS and Command IA 
Coordinator. Support includes contact either by phone or in person, 
assessment of family needs, discussion of available family support 
programs and services nearest to the family, facilitated referrals to 
nearby services, if requested, and mailing of IA information and 
materials. Efforts to reach remotely located families impacted by 
nontraditional duty assignments include using information technology to 
provide virtual IA family discussion groups and workshops, publishing a 
monthly family newsletter and IA Family Handbooks. When practical, 
deployment support programs and services have been adapted and provided 
specifically for family members of individual deployers. To date, FFSC 
Individual Deployment Support Specialists have served over 26,200 
families of individual deployers.
    Command Ombudsmen are trained on the unique challenges and issues 
faced by families of Individual Augmentees and geographically dispersed 
families. As trained volunteers, Command Ombudsmen serve a vital two-
way communication link between command leadership and family members 
providing personalized support and guidance to families adapting to the 
challenges of a mobile military lifestyle and extended operations 
necessary to meet the Navy's maritime strategy. There are currently 
over 2,200 registered Navy Family Ombudsmen. Fleet and Family Support 
Centers provide training, consultation, coordination and support to 
Ombudsmen.
    The Navy Reserve Psychological Health Outreach Program provides two 
Outreach Coordinators and three Outreach team members to each Reserve 
Region (for a total of 25). These coordinators and team members provide 
outreach, support, and intervention to returning reservists and their 
family members to mitigate existing stressors and to address future 
concerns. The newly established DoD Yellow Ribbon Reintegration Program 
provides Reserve Component (RC) Service Members and their families 
support through all phases of the deployment cycle. The military 
services are sharing information regarding their deployment support 
programs so that RC personnel and families can attend events as close 
to their residence as possible. We are also using resources provided by 
Military OneSource, Joint Family Support and Assistance Programs, and 
the State National Guard Family Program Offices to deliver this 
critical information to our remotely located families.
    Mrs. Davis. The Army and Marine Corps recently began to hire paid 
family support personnel to assist with administrative support. Does 
the Navy have similar paid support personnel to help with your 
programs? If not, why has your service chosen not to support paid 
family support personnel?
    Master Chief Petty Officer West. The primary focus of the Navy 
Family Ombudsman Program is command communication, information, and 
referral. Ombudsmen are trained volunteers that liaison between 
commands and their families to keep the command informed regarding the 
overall health, morale, and welfare of command families. The program is 
designed to improve mission readiness through family readiness. A 
strong command Ombudsman Program ensures that families have the 
information necessary to meet the challenges of a military lifestyle.
    All Ombudsman Coordinators are paid positions that provide 
administrative support to commands and Ombudsmen. The support includes 
scheduling Ombudsman Basic Trainings and Advanced Trainings, and 
working with the local Ombudsman Assembly. They also coordinate and 
track training records for Command Ombudsmen, assist with the 
development of email and telephone trees, develop and maintaining 
rosters, and ensure that command and Ombudsman information is updated 
in the CNIC Ombudsman Registry.
    The Navy Preparedness Alliance (NPA) consists of five major 
commands that oversee the vast majority of programs affecting Sailors 
and their families. The principle NPA members are US Fleet Forces 
Command, Bureau of Medicine and Surgery, Chief of Naval Personnel, 
Chief of Reserve Forces and Commander Navy Installations Command. Their 
July meeting they assigned the NPA Working Group a task to conduct a 
Business Case Analysis (BCA) on the feasibility of hiring Family 
Readiness Advisors (FRA). The FRA would help in readiness and 
deployment support, dissemination of information and referral, serve as 
a command's official communication to family members, and they would 
provide commands assistance in volunteer management.
    The Marine Corps Family Readiness Officer Program (FRO), a paid 
position, differs from the Ombudsman program, in that FROs have a 
higher level of responsibility within the command. In addition to 
serving as the liaison between the command and families they also 
manage, coordinate, and promote all matters pertaining to family 
readiness. As the primary point of contact concerning unit family 
readiness, the FRO is the subject matter expert for readiness events, 
conducts unit commander briefings, and ensures directives regarding 
family readiness posture are current.
    Mrs. Davis. Chief Master Sergeant Roy, how does the Air Force get 
information out to its families that may need support, particularly 
those families who may not live on a base or who was sent as an 
individual augmentee to a theatre of operation?
    Chief Master Sergeant Roy. Our main vehicle for getting information 
to Airmen's families is the Airman and Family Readiness Center (A&FRC). 
While the center is focused on Airmen who are deploying, including 
individual augmentees, services are available to any Airman assigned to 
a particular base, including those who live off base. If they are 
unaware of A&FRC services prior to deployment, they will become aware 
because attendance at the A&FRC predeployment briefing is mandatory for 
all deploying Airman. At the briefing, all Airmen are asked by A&FRC 
personnel to identify family members or significant others that may 
require assistance or information during a deployment. A&FRC personnel 
distribute information and maintain monthly contact with family members 
or significant others in multiple ways. Outreach focuses on face-to-
face meetings at community events for family members of deployed 
Airmen.
    A&FRCs take extra care to pinpoint whether the family will remain 
in the surrounding military community or choose to temporarily relocate 
to be near their familial support systems. Families are connected with 
the Airman & Family Readiness Center nearest to their location during 
the deployment.
    Mrs. Davis. The Army and Marine Corps recently began to hire paid 
family support personnel to assist with administrative support. Does 
the Air Force have similar paid support personnel to help with your 
programs? If not, why has your service chosen not to support paid 
family support personnel?
    Chief Master Sergeant Roy. The Air Force executes family readiness 
group responsibilities through numerous programs, including the Key 
Spouse program which has been successful through the support of 
volunteers and Air Force members.

                                  <all>

</pre></body></html>
